<html>
<title> - OVERSIGHT OF THE 2000 CENSUS: ACCURACY AND COVERAGE EVALUATION [ACE]-- STILL MORE QUESTIONS THAN ANSWERS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



  OVERSIGHT OF THE 2000 CENSUS: ACCURACY AND COVERAGE EVALUATION [ACE]--
                   STILL MORE QUESTIONS THAN ANSWERS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 19, 2000

                               __________

                           Serial No. 106-207

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                   U.S. GOVERNMENT PRINTING OFFICE
71-389                     WASHINGTON : 2001


_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director

                       Subcommittee on the Census

                     DAN MILLER, Florida, Chairman
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
PAUL RYAN, Wisconsin                 DANNY K. DAVIS, Illinois
MARK E. SOUDER, Indiana              HAROLD E. FORD, Jr., Tennessee
------ ------

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                       Jane Cobb, Staff Director
              Lara Chamberlain, Professional Staff Member
               Michael Miguel, Professional Staff Member
                        Andrew Kavaliunas, Clerk
                     Michelle Ash, Minority Counsel

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 19, 2000.....................................     1
Statement of:
    Prewitt, Kenneth, Director, Bureau of the Census, accompanied 
      by John H. Thompson, Associate Director for Decennial 
      Census; and Howard Hogan, statistician, Chief, Decennial 
      Statistical Studies Division...............................    29
Letters, statements, etc., submitted for the record by:
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York:
        Letter dated May 18, 2000................................    11
        Prepared statement of....................................    13
    Miller, Hon. Dan, a Representative in Congress from the State 
      of Florida:
        CRS report concerning sampling...........................    71
        December 1992 Federal Register...........................    44
        Prepared statement of....................................     4
        Various editorials.......................................    17
    Prewitt, Kenneth, Director, Bureau of the Census, prepared 
      statement of...............................................    35
    Ryan, Hon. Paul, a Representative in Congress from the State 
      of Wisconsin, letter dated May 17, 2000....................    23

 
 OVERSIGHT OF THE 2000 CENSUS: ACCURACY AND COVERAGE EVALUATION [ACE]--
                   STILL MORE QUESTIONS THAN ANSWERS

                              ----------                              


                          FRIDAY, MAY 19, 2000

                  House of Representatives,
                        Subcommittee on the Census,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m., in 
room 2247 Rayburn House Office Building, Hon. Dan Miller 
(chairman of the subcommittee) presiding.
    Present: Representatives Miller, Ryan, Maloney, and Davis 
of Illinois.
    Staff present: Jane Cobb, staff director; Chip Walker, 
deputy staff director; Lara Chamberlain, Michael Miguel, and 
Amy Althoff, professional staff members; Andrew Kavaliunas, 
clerk; Michelle Ash, minority counsel; David McMillen and Mark 
Stephenson, minority professional staff members; and Earley 
Green, minority assistant clerk.
    Mr. Miller. Good morning. We will begin with opening 
statements first, and then we'll hear from Director Prewitt and 
then we'll proceed.
    Director Prewitt, thank you for being with us here today. 
I'm pleased to hear that the Census Bureau is proceeding on 
schedule for nonresponse followup. This is the most difficult 
part of the census with respect to ACE, or the estimation plan.
    As we move into the politically charged arena of the 
Bureau's estimation plan, one of the greatest concerns to 
Congress and the scientific community is that we will not be 
provided all of the information and data necessary to evaluate 
the results in a timely manner.
    I want to get the Director's assurances today that these 
numbers will be fully scrutinized by the Bureau and the 
scientific community at large prior to their release for public 
use.
    As many of you know, in 1990 there were numerous errors 
found in the sampling plan known as the PES. After the census 
in 1991 the Bureau discovered a computer error in the PES that 
inflated the undercount by 1 million people. Then, during a 
series of evaluations that took almost 2 years, the Bureau 
discovered more errors in the PES leading to even more 
erroneous enumerations.
    In 1992, the experts at the Bureau who reviewed the 1990 
census estimation plan issued what's known as the CAPE report. 
These experts reported that, ``About 45 percent of the revised 
estimated undercount is actually measured by us and not 
measured undercount.'' In other words, in 1990 almost half of 
the statistical adjustment was wrong.
    Once States draw their district lines you can't come back a 
year later and say, ``sorry, we made a mistake, we added or 
subtracted too many people.'' If it took almost 2 years in 1990 
to find the errors, how can you ensure that we don't have the 
same errors this time in only a few months?
    From a practical perspective, there is no guarantee that 
this plan is even viable. Despite claims to the contrary, the 
National Academy panel has not given the ACE a full blessing. 
While certain groups have endorsed statistical estimation as a 
concept, this is a far cry from an endorsement of the actual 
plan.
    To give you an analogy, we all know that it's possible to 
build a spaceship to go to the moon or Mars. Yet, as with all 
very complex scientific tasks--and the estimation plan is 
immensely complex--your spaceship could blow up on the 
launching pad or burn up in the atmosphere as has happened 
twice recently.
    What assurances do we have from the Director that their 
scientific plan won't blow up? Just because something may be 
theoretically possible doesn't mean it can be done.
    Despite claims by the Democrats, Republican opposition to 
the estimation plan is based on fundamental, unresolved 
problems. Is the plan constitutional, is it legal, is it in the 
best interest of our Nation as a whole, and simply, will it 
work?
    In January 1999, the Supreme Court ruled that sampling or 
estimating portions of the population was illegal. Democrats 
read the decision to outlaw the issue of sampling for purposes 
of apportionment only, while Republicans read the decision to 
prohibit the use of estimation for redistricting as well.
    In the wake of that decision, the nonpartisan Congressional 
Research Service issued an opinion, ``A closer examination of 
other parts of the Court's opinion indicates that it did not 
interpret those other purposes as necessarily including at 
least intrastate redistricting.''
    Unfortunately, this administration was not going to be 
deterred by even the Supreme Court. In a political move clearly 
against the best interests of the Nation, the Clinton-Gore 
administration decided to conduct a two-number census. This 
unwise decision will clearly throw the States into legal 
turmoil over the census, the likes of which this Nation has 
never seen.
    And while the Democrats and their so-called experts have 
claimed that it is perfectly legal to use estimation for 
purposes of redistricting, I would simply offer a few words of 
caution. These are the same so-called experts that said 
estimation could be used for apportionment. Those on the 
estimation side of this disagreement have yet to win a court 
case.
    The fundamental purpose of the census is to fairly and 
accurately apportion and distribute political representation. 
Our political system, for the most part, is the envy of many 
other nations. One of the foundations of our system is its 
relative transparency. Our elections are carefully scrutinized 
and the appeals process clear. If warranted, for example, an 
election can be challenged, voter registration records can be 
checked and rechecked, ballots recounted. With estimation, it's 
simply not possible to verify whether or not a person added 
actually exists or if a person subtracted was done so 
rightfully.
    Additions and subtractions exist only in a virtual world, a 
world based not in reality, but in the complex mathematical 
formulas that could be right or wrong and understood only by a 
few select statisticians and government bureaucrats. Census 
estimation, no matter who is crunching the numbers, is not a 
system that lends itself to trust and integrity, two 
cornerstones of our electoral process.
    And while we have spent billions of dollars to motivate 
people to participate in the census, something that all sides 
agree is a civic ceremony, what would motivate someone to 
participate in the census when they can sit back and be 
estimated? Why fill out your census forms at all if the 
government will compensate for you anyway? And even worse, how 
can it be acceptable that someone does their civic obligation, 
fills out their form on time and sends it in, only to have the 
government say they count as less than a whole person? Is this 
not a violation of one man, one vote? Can the Director 
guarantee that every person who filled out a form and only one 
form will be counted as one person and not less? The answer, 
disturbingly, is no.
    The fact not widely talked about in the Bureau is, there 
will be people who do everything right, fill out their census 
forms, send them in on time and will be counted as less than a 
whole person.
    While I fully support expending the resources to reach the 
undercounted, I wholeheartedly oppose the concept of counting 
someone as less than a whole person.
    The census has traditionally been constructed of millions 
and millions of individuals. However, this estimation plan has 
introduced a new level of demographic grouping that is very 
dangerous in its assumptions. The assumption that people within 
racial groups act alike and have the same tendencies is 
something that this Nation has been trying to overcome for over 
100 years, but now the Census Bureau has gone down that exact 
path.
    No longer are we individuals. Now we are White males, 25 to 
35, who rent or own. We are Cubans in Miami, Mexicans in Texas, 
Puerto Ricans in New York, that according to the Census Bureau 
are all alike and thus are grouped together. We are Asians, 
including Chinese, Japanese and Koreans from Seattle to 
Washington, DC, grouped together like so many choices.
    The by-products of this estimation plan are not healthy for 
our Nation. From civic disengagement to simply throwing one 
man-one vote out the window, we in the long run hurt our 
Nation.
    We must do everything possible to eliminate the undercount. 
We must also remain faithful to our Constitution, the law and 
the civic health of our Nation. Clearly this administration is 
putting politics ahead of sound public policy. Unfortunately, 
it will take the courts once again to protect the integrity of 
our census.
    [The prepared statement of Hon. Dan Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T1389.001
    
    [GRAPHIC] [TIFF OMITTED] T1389.002
    
    [GRAPHIC] [TIFF OMITTED] T1389.003
    
    Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman. I must say I find 
the title of today's hearing very curious. It's called Status 
of the 2000 Census, Accuracy and Coverage Evaluation, Still 
More Questions Than Answers. Yet it seems to me, Mr. Chairman, 
that there are almost no unanswered questions, only questions 
which you don't like the answers to.
    Despite the cautious stance taken by the Census Bureau, I 
believe that the 2000 census may well be the best, fairest and 
most accurate census ever, a fitting way to start the 21st 
century. It will be that not just because of the operational 
successes we have seen to date, but because it incorporates 
modern scientific methods into its design.
    We all know the problems of the 1990 census. It contained 
millions of errors and was the first to be less accurate than 
the census before it. The 1990 census had an error rate of over 
10 percent, 8.4 million people were missed, 4.4 million people 
were counted twice and 13 million people were counted in the 
wrong place. And we know who the people were that were missed. 
They were children. They were minorities in urban and rural 
areas.
    The Census Bureau, working with the National Academy of 
Sciences at the direction of Congress in a bipartisan way, has 
tried to fix these errors, but there are politicians who, for 
partisan reasons, have tried to make sure that it doesn't 
happen. They have tried to make sure that minorities in poor, 
urban and rural areas and children are not undercounted.
    The Census Bureau first discovered the problem of the 
undercount during World War II, 60 years ago, when more young 
men showed up for the draft than the Census Bureau thought 
existed. For young Black men, nearly 13 percent more showed up 
for the draft than they expected, showing that there was a 
disproportionate undercount, particularly for minorities.
    We now know that the people missed in the census are the 
urban and rural poor and minorities. We also know that the 
people counted twice are primarily people who are fortunate 
enough to have two homes. They're suburbanites. Those errors 
shift economic resources and political representation unfairly. 
Those who oppose the use of modern scientific methods in the 
census would ensure that millions of people missed in the 
census are left out permanently and the millions of people 
counted twice are forever kept in. That is fundamentally unfair 
and it is unjust and it must stop, and that is why this census 
has been called the civil rights issue of the decade--whether 
we will correct, knowing people that are left out, whether we 
will do what every scientist says needs to be done to make sure 
that they are counted and represented.
    The closer the Census Bureau has gotten to developing a way 
to fix these errors, the harder the opponents of a modern 
census have worked to stop them. In 1987, the professionals at 
the Census Bureau proposed a 300,000-household survey to 
measure and correct for the errors of the census. The 
politicians at the Reagan Commerce Department stopped that 
planning dead in its tracks. Correcting the 1990 census would 
have been stopped for good had not the great city of New York--
and I am proud to be a Representative from that great city--the 
city of New York sued.
    Finally, in late 1989, the Commerce Department allowed 
planning for the quality control survey to go forward. However, 
instead of allowing it to be a 300,000-household survey, the 
politicians at then-President Bush's Commerce Department cut it 
in half, and the Secretary reserved the right to block the use 
of the corrected, modern, scientific numbers. Not surprisingly, 
he overruled his own Republican-appointed Census Director, Dr. 
Barbara Bryant, and the professional nonpartisans at the Census 
Bureau, and he did block their use.
    In 1997, the opponents of a fair and accurate census, they 
held up a disaster relief bill to the Midwest because they 
attached language to this important bill that would have 
prohibited the use of modern scientific methods. They believed 
that the President of the United States, when the country was 
in disaster, people were suffering, their homes were under 
water, that he would not have the nerve to veto the disaster 
relief bill over the census, over an accurate census, yet the 
President vetoed the disaster relief bill over the census 
because of their crass attempt to manipulate the numbers in the 
census; and he received editorial support clear across this 
country.
    And I would like permission, Mr. Chairman, to put all of 
those editorials in the record of this hearing.
    Mr. Miller. OK.
    Mrs. Maloney. In 1997 and again in 1998, opponents of a 
fair and accurate census, those who did not want minorities and 
the poor and children in urban and rural areas counted, tried 
to use the appropriations process, the budget process, to 
legislate how census 2000 would be conducted by threatening to 
hold up two budgets and close down the government. Their 
attempt to block the use of modern scientific methods failed 
again.
    Principally at the direction of Congress, the National 
Academy of Sciences has conducted extensive research and review 
of the planning and implementation of the 2000 census 
throughout the decade of the 1990's, working with the Census 
Bureau. Four separate panels of independent experts have 
consistently supported the use of modern scientific statistical 
methods, in general. More recently, a fifth panel, the 
Academy's panel to review the 2000 census has endorsed the 
Bureau's specific plans for the ACE program in census 2000; and 
I would like permission to put in the record the five 
statistical reports and scientific reports that have come out 
in support of the Bureau's plans.
    May they be put in the record?
    Mr. Miller. No objection.
    Mrs. Maloney. The overwhelming majority of the scientific 
community has concluded that if we are to have a 2000 census 
that is fair and accounts for all residents of this country, 
regardless of race or economic status, it must be a census that 
uses modern methods. And I would now like to put into the 
record this list of organizations that supports the use of 
modern scientific statistical methods, and it includes all 
kinds of associations from across this country.
    Mr. Miller. Without objection.
    Mrs. Maloney. The General Accounting Office, the Commerce 
Department's Inspector General and George Bush's Census 
Director, Dr. Barbara Bryant, are all on record in their 
support.
    The Census Bureau has presented its plans for the use of 
modern methods to the scientific community on a continuing 
basis since 1996. This subcommittee and the Census Monitoring 
Board have been kept apprised of those plans since their 
inception, and the Secretary's 2000 Census Advisory Committee, 
Race and Ethnic Advisory Committees and Census Advisory 
Committees of Professional Associations have all been briefed 
on these plans as well.
    Again, Mr. Chairman, there are not any unanswered questions 
about the ACE program, only answers that the Republican 
Conference and the RNC doesn't like. I have heard the opponents 
of modern methods say repeatedly that they are a, ``risky 
experimental plan that is inaccurate, that all we need to do is 
use old methods and try really hard to just count everyone.'' 
Well, the only thing that is risky is not using modern methods.
    Over the course of the years, working on this issue, I have 
repeatedly heard from people, how do you know that you missed 
people, how do you know that there is an undercount? Well, the 
Census Bureau is unique among government agencies in that they 
tell you how well they have done. And the only way we know that 
the 1990 census was less accurate than the one before it was 
the 1990 post-enumeration survey, the use of modern statistical 
methods.
    And the only way we will be able to determine the most 
accurate count for the 2000 census is from the results of the 
ACE program, the use of modern statistical methods. In the end, 
it is only through those methods that we will have the most 
accurate census possible.
    I would also like to comment briefly on the Supreme Court 
case. Very simply, in the Supreme Court case, the Republicans 
won one and the Democrats won two. The Court held that you 
could not use modern scientific methods for the apportionment 
of seats between the States, but if at all feasible, you could 
use it for the distribution of Federal funds which is 
tremendously important since the Federal Government distributes 
over $185 billion a year based on funding formulas that are 
tied to census numbers. That means that over $3 trillion in the 
next decade will be distributed on these numbers, and we need 
to make them accurate; and they also held that it could be used 
for redistricting within the States, and that is why we have to 
come forward with two numbers, one for reapportionment between 
the States and one for redistricting and the distribution of 
funds.
    I'd also like, Mr. Chairman, to briefly comment on the e-
mail that you made public last week. Mr. Chairman, I continue 
to believe that it was inappropriate to make this public 
without first talking to its author, especially since you used 
it to imply a vast conspiracy by the census to hide information 
from Congress. And I remain disturbed by the fact that I had 
little more than an hour's notice of this e-mail's existence 
prior to our hearing. And I still am disturbed that GAO, a 
supposedly nonpartisan independent body, contacted the staff of 
the majority but did not contact the staff of the Democratic 
minority.
    The e-mail may be poorly worded, but after speaking to its 
author, I called the gentleman. He is an honest, hardworking 
American. He is a former Marine. He is working very hard now 
for his country on this great civic ceremony, the census. I 
believe him, that he made an honest mistake that is not in any 
way evidence of a systematic attempt to deny information to 
Congress.
    Nevertheless, it seems to have raised questions in your 
mind which should be put to rest. Therefore, I have written to 
the Comptroller of GAO asking him to investigate this incident 
as soon as possible and to have the GAO determine if there is 
an intentional, systematic attempt to hide information from 
Congress. I'd like to introduce that letter into the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1389.004
    
    Mrs. Maloney. I'd like to thank the chairman, and I would 
also like to put into the record, since at times this issue has 
been called partisan, and regrettably sometimes it has been 
partisan in our comments--so, therefore, to bring the debate 
above a partisan level, I would like to introduce into the 
record all of the editorials from across this country in 
support of the Census Bureau's plans, in support of the use of 
modern scientific methods to correct the undercount, and it 
comes from the Miami Herald, the Houston Chronicle, newspapers 
all across this country.
    Mr. Miller. I think we've already accepted that.
    Mrs. Maloney. Thank you.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]

[GRAPHIC] [TIFF OMITTED] T1389.005

[GRAPHIC] [TIFF OMITTED] T1389.006

[GRAPHIC] [TIFF OMITTED] T1389.007

    Mr. Miller. Mr. Ryan.
    Mr. Ryan, before you begin, you mentioned the editorials. 
There's some very large number of editorials opposed to the 
concept of statistical adjustment and manipulation, and I ask 
consent that we enter those in the record, and without 
objection, those editorials will be included.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T1389.008
    
    [GRAPHIC] [TIFF OMITTED] T1389.009
    
    [GRAPHIC] [TIFF OMITTED] T1389.010
    
    [GRAPHIC] [TIFF OMITTED] T1389.011
    
    Mr. Miller. I am glad you talk about getting away from the 
partisanship, but it's something you make a statement and it 
really bothers me to set claims, Mrs. Maloney, that we don't 
want to count people. This Congress has provided every penny 
and provided all the resources the Bureau has asked to get 
everybody counted. That is our objective, that is our goal; and 
we are not trying to not count people, and to say that is just 
political rhetoric. So I just want to make sure we clear the 
record.
    Let me clear one other record and that is the question 
about scientific endorsement. The National Academy of Sciences 
panel to review the 2000 census has not endorsed the ACE. I had 
a long meeting with Janet Norwood only 2 days ago, and she 
emphatically stated several times that neither she nor any 
member of the panel has made any determination as to the 
quality or outcome of the ACE. She explained what is quite 
obvious to most people, that you can't evaluate a statistical 
process if, one, it's not complete and, two, you don't have the 
data. So please stop misrepresenting the truth here. The ACE is 
a statistical plan, but at the moment it is mostly just that, a 
plan.
    Mr. Ryan.
    Mr. Ryan. Thank you, Mr. Chairman.
    Mr. Chairman, let me followup on this. We are going into 
that touchy part of the census where I think we have done very 
remarkable accomplishments in the enumeration process, and I'm 
excited about hearing more about how well the enumeration is 
working, but now we are getting into that touchy area and now 
we are hearing the kinds of discussions, the kind of political 
rhetoric that is unfortunate.
    First of all, it's not all Democrats against all 
Republicans. Democrats in my home State of Wisconsin are 
against sampling because they know it is not good for the State 
of Wisconsin. So I object to the characterization that 
opposition to the ACE plan means opposition to counting people. 
The same people who oppose the ACE plan, the chairman and 
myself, are the same people who have provided $7 billion to 
improve the census, especially in the traditionally 
undercounted areas and communities in the inner cities, $7 
billion provided for advertising, $7 billion provided for 
partnership, hiring that far exceeded any previous census. So 
saying that the people who provided these resources don't want 
the people to be counted is wrong and is actually racially 
divisive.
    Post-census local review, we passed that out of Congress. 
We can't get it signed into law. Post-census local review, in 
my opinion, is a very good idea. It simply says in those hard-
to-count areas, the inner city of Milwaukee, the inner city of 
New York, please look at the data, local, elected officials, 
tell us if we missed anybody. Did we miss a public housing 
complex? Did we miss a neighborhood that's tough to reach? Did 
we miss a Latino neighborhood that didn't want to comply with 
the census? If so, we'll go back and get those people counted. 
That's a very common-sense idea.
    It's a common-sense idea that was supported in 1990 by 
Democrats and Republicans alike. The mayor of Chicago, mayors 
all across the country supported a common-sense idea like post-
census local review. We passed post-census local review to try 
and improve the count, to try and make sure that those people 
who are historically undercounted get counted, that local 
officials, mayors, county board members, city council people, 
pastors in inner-city churches get a chance to look at the data 
before it's finalized to make sure that their citizens weren't 
missed. Well, this administration blocked post-census local 
review. We don't have post-census local review.
    LUCA was a good idea. LUCA worked well, but it can be 
improved upon. I still think we should do post-census local 
review. So to suggest that those of us who have questions about 
the statistical adjustment are somehow against getting the most 
accurate census is a ridiculous claim, No. 1.
    No. 2, the scientific community is clearly not unified on 
this point, so also to suggest that the scientific community is 
completely behind statistical sampling is not correct. I have a 
letter here from the Statistics Department of the University of 
Berkeley in California, Dr. David Freeman and Kenny Walter. I 
ask unanimous consent that this letter be inserted into the 
record, Mr. Chairman.
    Mr. Miller. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1389.012
    
    [GRAPHIC] [TIFF OMITTED] T1389.013
    
    [GRAPHIC] [TIFF OMITTED] T1389.014
    
    [GRAPHIC] [TIFF OMITTED] T1389.015
    
    Mr. Ryan. Also, the National Academy of Sciences has not 
endorsed the ACE plan. So to suggest that the scientific 
community believes that this is a unified point, that's just 
not the case.
    Sampling didn't work in 1990. We found that years later we 
had dire problems. So one thing that I think in today's 
hearing, hopefully we can get into, is the compressed time line 
that this plan involves. I am concerned that this rushed time 
line is going to give us the errors we will discover down the 
road when it's too late.
    So with that, Mr. Chairman, I'd like to yield back the 
balance of my time. My friend from New York, the national 
academy of scientists hasn't officially endorsed the ACE plan. 
The scientific community is divided on this. So I hope that we 
can move forward on an even keel, on an objective basis; and I 
hope that we won't get into this heightened political rhetoric 
where we are impugning the motives of each of the two parties 
involved.
    All of us want an accurate count. All of us want everybody 
to be counted in the neighborhoods where they live. Democrats 
and Republicans in Wisconsin want that. All of us want that. So 
let's keep the discussion at that level if we may.
    With that, I yield back the balance of my time.
    Mrs. Maloney. I request permission to respond. I think that 
I should be able to respond.
    Mr. Miller. Mr. Davis.
    Mr. Davis of Illinois. I yield time, Mr. Chairman.
    Mrs. Maloney. Very briefly I feel that we should let the 
facts speak for themselves, so I would like to put into the 
record the legislation, bipartisan, that went--that passed 
calling on the National Academy of Sciences to come forward 
with a plan to correct the undercount. The plan that they came 
back with, which was the use of modern scientific methods, I 
would like to put into the record the language that the 
Republican majority attached to the disaster relief bill that 
would have prohibited the use of modern scientific methods. I 
would like to put into the record that the Republican majority 
tried to attach to two budget bills, holding up two budgets, 
that would have limited and prohibited the use of modern 
scientific methods.
    The facts speak for themselves, and I will put that in the 
record, and it is clear--and it is clear what the intention of 
such actions would do and how it would affect and continue an 
undercount. Knowingly, the majority tried to stack the deck so 
that millions of Americans would be intentionally left out of 
representation and funding dollars in this country. It is 
unfair. It is unjust. It is the civil rights issue of this 
decade.
    Mr. Ryan. Will the gentlelady yield for an honest point of 
clarification--not a tit for tat, just an honest point of 
clarification?
    Mr. Davis of Illinois. Reclaiming my time, I yield.
    Mr. Ryan. Thank you, Danny. Appreciate it. That was 2 years 
ago in the last Congress. That was then; this is now. Let's 
move forward with not a lot of political rhetoric. Let's move 
forward and debate this objectively, and let's not impugn the 
motives of each other. We all want an accurate count. With 
that, I yield.
    Mr. Davis of Illinois. Reclaiming my time, Mr. Chairman, 
let me thank you for convening this hearing regarding oversight 
of the 2000 census and the impact of the accuracy and coverage 
evaluation, that is, the ACE process. As enumerators begin the 
process of going door-to-door to those households that did not 
send in their census forms, it is important that we examine the 
ACE operations. The ACE process was added to the 2000 census to 
replace the post-enumeration survey of 1990 in an effort to 
improve the accuracy of the census.
    We all know that accuracy must be the goal. We can ill 
afford to go back to the days of 1990 when too many people lost 
from an inaccurate census. The constituents of my district, the 
Seventh Congressional District in Illinois, deserve and need an 
accurate count of the entire population. They realize that too 
much is at stake to get a less-than-accurate count.
    In 1990 Chicago lost millions of dollars in Federal funds 
because of a census undercount. According to the Bureau, at 
least 10 people, including at least 113,831 in the State of 
Illinois, 81,000 in Cook County and 68,000 in the city of 
Chicago were not counted in the 1990 census. Many of those 
missed were obviously children and women who live in minority 
communities. Because the 1990 census missed counting millions 
of people in Chicago, every one of our residents were 
shortchanged on money to repair roads and streets. They were 
shortchanged on money for mass transit and senior citizen 
homes. They were shortchanged on money for schools, parks and 
job training. Perhaps the most egregious shortchange was that 
of political representation, and in a democracy representation 
is essential to having a voice in local, State and Federal 
Government.
    I represent many hard to count people. According to the 
Census Bureau 165,000 of them live at or below the poverty 
level in my district. I'm pleased that we're holding these 
hearings in an effort to make certain that the Census Bureau 
and others are doing everything possible to get an accurate 
count. Yes, many people are indeed difficult to count. 
Therefore, we must use every effort to try and make sure that 
the past evils and transgressions of our Nation do not continue 
to negatively impact upon the reality of our being, and if 
there is to be fairness, we must indeed make use of every 
method available to us.
    Just 2 days ago the mayor of my city, Mayor Daley announced 
a $400,000 radio and television advertising campaign to be 
funded by the city to encourage people to cooperate and 
participate in the 2000 census. This advertising campaign 
coupled with what the Census Bureau has already committed to 
will go a long way toward a more accurate census. However, I 
tell you that you cannot undo with radio and television ads 
what 400 years of slavery, deprivation, discrimination, denial 
of equal opportunity, lack of opportunity to be educated, to 
understand, to be a part of the mainstream, you cannot undo 
that with radio, television and newspaper advertising. You 
cannot even undo it by sending people door to door, looking for 
people that you cannot find, people who in many instances are 
unreachable, untouchable and unfindable, and I don't care how 
much we put in, unless we make absolutely certain that every 
available technique, every scientific advancement, every 
opportunity exists to count every single person, account for 
every single person in this country, then we once again will 
come up lacking. Once again, individuals will be left out. Once 
again, individuals will be shortchanged and once again, this 
Nation will have shortchanged itself.
    So, Mr. Chairman, I am pleased that we're having this 
hearing and look forward to the information that Dr. Prewitt 
will share with us. So I thank you and yield back the balance 
of my time.
    Mr. Miller. Thank you, Mr. Davis. You do outline the real 
challenges of this massive undertaking that we're in the 
process of. Dr. Prewitt, if you and Mr. Hogan and Mr. Thompson 
would stand and raise your right hands, we'll get you sworn in 
and proceed, in case Mr. Thompson and Mr. Hogan is needed to 
assist you.
    [Witnesses sworn.]
    Mr. Miller. Thank you and please be seated. The record will 
reflect that Mr. Thompson, Dr. Hogan, Dr. Prewitt answered in 
the affirmative. Welcome. Thank you. You may proceed with the 
opening statement.

 STATEMENT OF KENNETH PREWITT, DIRECTOR, BUREAU OF THE CENSUS, 
    ACCOMPANIED BY JOHN H. THOMPSON, ASSOCIATE DIRECTOR FOR 
   DECENNIAL CENSUS; AND HOWARD HOGAN, STATISTICIAN, CHIEF, 
             DECENNIAL STATISTICAL STUDIES DIVISION

    Mr. Prewitt. Thank you, Mr. Chairman, and I did solicit the 
chairman's permission this morning to spend just a few minutes 
returning to the e-mail incident that was addressed last week 
at the subcommittee hearing with the GAO, and I have also 
informed the minority and also the leader and also Mr. Davis 
and Mr. Ryan that I would like to address that quickly.
    I'd like to start by saying that it is understandable that 
in the absence of facts the offending sentence instructing the 
LCO managers not to share a given report with the GAO could 
have led to the strong reaction of the chairman, of Congressman 
Ryan and of Mr. Mihm of the GAO. But the facts do in fact 
mitigate this reaction and I would like to quickly put them in 
the record, and here I paraphrase from a subsequent e-mail by 
Mr. Rodriguez, who was the author of that initial e-mail.
    The report in question, he explains is, a regional level 
report and information from it should be shared only by the 
regional level. It in turn generates local office reports, and 
it is this information that can be shared by local managers. As 
he writes in a subsequent e-mail to us, that, as per our 
instructions on May 8th at about 3 p.m., the report, the 
offending report--not the offending report but the one that 
initiated the incident--was to be shared at the area manager's 
discretion with their local census office but any one local 
census office was not to share the production information of a 
different LCO; that is, each LCO was only to share its own 
information and not other patterns of information. If anyone 
outside the Census Bureau wanted to obtain a regional level 
report, they can get that from the regional census center, and 
then he goes on to explain why he sent the report he did: ``My 
intentions were to provide the report to my offices as a tool 
to encourage friendly competition and thereby productivity, 
nothing more. I regret that my intentions have been 
misinterpreted and rightly so because of the way my e-mail was 
worded, and I apologize for any inconvenience I may have 
caused.''
    I would like to say, Mr. Chairman, that obviously I join in 
that apology but nevertheless do want to make certain that we 
understand that the facts themselves give no warrant for the 
accusation that the Census Bureau is preventing the GAO from 
discharging its responsibilities.
    Mr. Chairman, we have taken this accusation so seriously 
that yesterday with Deputy Director William Barron I met with 
David Walker, the Comptroller General, with Nancy Kingsbury and 
with Chris Mihm to reiterate the Census Bureau policy in regard 
to access, and I do believe that we all fully understand that 
there's nothing in our policies that are designed to prevent 
any access by the GAO.
    Mr. Chairman, more than a week ago at the subcommittee 
hearing to which I've referred, you said that there were Census 
Bureau employees, ``in very influential positions who are 
dangerous.'' This I take as a very serious charge. If 
substantiated, I would take corrective action. Obviously if I 
am, myself, the person who is dangerous, then I would expect 
you to bring that to the attention of the Secretary and he 
would take corrective action.
    In that same hearing, you asked the GAO to investigate the 
incident that led you to make this extremely serious charge. 
Yesterday I asked David Walker, Comptroller General of the GAO, 
if his organization had any evidence that would corroborate 
your charge that the Census Bureau has people in very 
influential positions who are dangerous. He replied in the 
negative, and in this he was seconded by Christopher Mihm, who 
also was present at the meeting.
    Mr. Chairman, it is now more than a week after your charge. 
I know that you and your staff had conducted your own 
independent investigation, and I wait for the evidence on which 
this accusation is based, for I am unable to take corrective 
action until I know who these people are and what it is that 
makes them dangerous. So may I respectfully request that you 
please provide me, as soon as possible, the names of the 
dangerous people, the nature of the danger they pose and of 
course the evidence that would substantiate this charge, and I 
promise to you that I will take corrective action. Thank you, 
sir.
    Now, if I may, I'll turn to my opening comments on the 
topic of this hearing.
    Census 2000 operations continue on track and on budget. I 
earlier reported that the mail-back response rate at 66 percent 
was very encouraging, and in my written testimony I indicated 
that we had completed 39 percent of the nonresponse followup 
workload. I would like to update that number through yesterday. 
The workload is now 50 percent complete. Putting these two 
numbers together, the census enumeration is now approximately 
85 percent complete. That is, 85 percent of the housing units 
have now responded or we have identified them as vacants.
    Still, the Census Bureau does not anticipate at this point 
that census 2000 will have better coverage than the 1990 census 
because many of the factors that led to the undercount in 1990 
are still present in American society, and indeed, as a 
proportion of the population have grown--more gated 
communities, more recent immigrants, more linguistically 
isolated households, more persons living in irregular housing 
and perhaps more anger toward the government.
    The Census Bureau has both measured and documented the 
existence of a substantial undercount since 1940, and this has 
already been referenced in the opening comments. The Census 
Bureau has been running harder but believes this will only 
allow us to stay even. That is, we expect that neither the 
overall coverage levels nor the differential undercount rates 
in census 2000 will show improvement over 1990. The Census 
Bureau strongly hopes to be proven wrong in this assessment, 
and the ACE will give us the information to determine whether 
this is so.
    The ACE provides a final quality check on how well we have 
done in the initial census. The alternative is not to do the 
ACE and never know how we have done below the national level 
where demographic analysis does provide a benchmark. The ACE 
also provides the means to generate a more accurate count.
    The 1990 version of the ACE, or the accuracy and coverage 
evaluation, was called the post-enumeration survey. It provided 
information that was used during the 1990's to improve 
statistical programs. The population estimates the Bureau of 
Labor Statistics asked us to incorporate into the current 
population survey program following the 1990 census were 
corrected for the undercount identified through the 1990 PES. 
The Bureau of Labor Statistics also requested adjusted 
population controls for the consumer expenditure survey. All 
other major national demographic surveys conducted by the 
Census Bureau or other agencies in the Federal statistical 
system also were converted to this adjusted population base. 
And Katherine Abraham, the current Commissioner, of course 
testifies that in the absence of this correction their 
published demographic distribution of unemployment and other 
measures would have been inaccurate.
    We believe we have an obligation to the Bureau of Labor 
Statistics and the many, many other users of our data products 
to make our data as accurate as possible. I have said 
previously that the Census Bureau currently expects that the 
corrected numbers using the accuracy and coverage evaluation 
will be the more accurate numbers. If the Census Bureau does 
not have confidence in the results, we will not use them. The 
decision whether to release the statistically corrected data 
should take into consideration operational data to validate the 
successful conduct of the ACE, whether the ACE measurements of 
undercount are consistent with historical patterns of 
undercount and a review of selected measures of quality.
    In the fall of this year the Census Bureau will discuss the 
review process and criteria with the statistical community and 
other interested parties. We will set forth how we will assess 
whether our operational functions for the ACE were met. All 
major operations have been designed and documented and the 
details have been available for review and comment. Every 
document requested by the subcommittee has been forwarded. 
Here, however, Mr. Chairman, is a complete set. It is possible 
there are documents here that you have not yet requested, but 
we can provide you the entire complete set of our decision 
documents that go into the design of the ACE.
    Now, let me very quickly try to describe the operations as 
requested in your invitation letter. Several major operations 
have now been completed. One is ongoing and others will follow 
the completion of nonresponse followup. All operations are 
currently on schedule.
    The basic concept behind the ACE is the comparison of the 
data from two systems, an independent survey and the initial 
census. Because of its small size relative to the initial 
census, we believe we can do a better job enumerating people in 
the housing units in a sample. We can be more selective about 
the interviewers, train them longer, pay them more and provide 
more quality assurance.
    The first step in the ACE process is to design and select a 
sample which consists of approximately 314,000 housing units or 
about one-fourth of 1 percent of the total housing units. The 
basic units of this sample are what we call block clusters, and 
there will be about 11,800 block clusters in our sample. The 
sample was designed and selected to provide sufficient 
precision to estimate the true population for various groupings 
of the population that we call post-strata which I will 
describe below.
    The next step in the process is to create an independent 
listing of housing units. By independent we mean that we do not 
start with or refer to the master address file from census 2000 
but instead have census staff systematically canvass the block 
clusters to list the addresses. This operation was completed in 
the fall of 1999, checked and keyed and 100 percent quality 
controlled in our national processing center.
    The Census Bureau then matches this list of housing units 
to the master address file, first by computer and then 
clerically if necessary, using this additional information, we 
continue to improve our address list. The purpose of this 
housing unit match is to create an accurate linked list of 
housing units in the block clusters. This work was also 
completed on schedule.
    To provide sufficient data to compare the ACE to the 
initial census the Census Bureau of course must conduct 
interviews to collect data from each of the housing units that 
were independently listed. We initiated the ACE interviewing 
with a telephone phase using laptop computers in a technique we 
call computer assisted personal interviewing. This is the 
laptop computer that we're using that in that procedure, and we 
would be delighted, of course, to provide a staff briefing of 
how it is used.
    We began in late April telephoning households in the ACE 
sample at unique addresses for which a census 2000 
questionnaire had been mailed back, processed through data 
capture and for which a telephone number was provided. As of 
today we have completed over 60,000 interviews by telephone, 
more than 20 percent of our workload for the ACE. In addition 
to getting an early start on interviewing, the benefits include 
providing experience for our supervisors and a final testing of 
our automated system. The Bureau, of course, has had extensive 
experience with telephone interviewing. We designed this phase 
of the ACE based upon our testing of the methodology in the 
dress rehearsal.
    As you know, we do not begin personal visit interviewing 
until nearly all nonresponse followup work is completed in all 
the ACE block clusters in an LCO. This is one of the ways we 
preserve independence between the ACE and the census. If 
nonresponse followup and ACE, field interviews are working the 
same areas simultaneously, they could affect each other's work, 
and that's why we wait to complete nonresponse followup before 
starting the personal visits.
    Interviewers, whether on the telephone or personal visit, 
focus on reconstructing the Census Day household; that is, 
determining who lived at the address on Census Day at the time 
of the ACE interview and collecting as much information as 
possible for those who lived at the address on Census Day but 
have moved out, so we also have special procedures, of course, 
for movers.
    All of these interviewers will use the CAPI technique. This 
is a technique that improves the accuracy of the operation 
because it permits a more structured interview and more probing 
questions. We have extensive processes for conducting quality 
assurance to identify data quality or falsification problems, 
though for data quality purposes we do not widely publicize 
these processes. Most personal visit interviewing will be 
conducted in late July or August, but some may begin in mid-to-
late June. Personal visit interviews are conducted only with a 
household member during the first 3 weeks if the case is 
available. If an interview is not obtained after 3 weeks, 
interviewers will attempt to interview another knowledgeable 
person, and during this latter part we use our very best 
interviewers of course who are trained to convert reluctant 
respondents.
    We then do person matching. This will occur in October and 
November. Census Bureau staff conduct the various stages of the 
matching of persons listed in the ACE interviewing to those 
persons counted in the same block clusters as part of the 
initial census, and we have designed, of course, these matching 
processes to minimize errors. Incorrect matching determinations 
generally result from incomplete, inaccurate or conflicting 
data or from poor judgment, and so we have several stages at 
which we conduct this matching process each with its own 
quality assurance process.
    We then turn to dual system estimation. We use data from 
the ACE and the census to estimate the true population using a 
statistical technique called dual system estimation. The DSE 
will be conducted for each of over 400 groupings of people or 
post-strata. The dual system estimator of true population is 
then used to calculate a coverage correction factor for each 
post-stratum, which is the ratio of the DSE to the initial 
census count. The variables that define the post-strata 
grouping include race, ethnicity, age, sex, owner and nonowner, 
return rates, whether in or out of a metropolitan area and, if 
in, the size of the area, the type of census enumeration 
method.
    These are characteristics that our research indicates are 
correlated with a likelihood of inclusion in the census. An 
example of one post-stratum is non-Hispanic Black males age 18 
to 29 in nonowner units in mail-out mail-back areas of 
metropolitan areas with 500,000 or more people in a tract with 
a low return rate in the census.
    Coverage correction factors are then applied the census 
files. For example, if the coverage correction factor for a 
non-Hispanic Black male in the specific post-stratum described 
above is 1.02, this means the Census Bureau measured an 
undercount of 2 percent for this post-stratum and for every 100 
people counted in the census in these areas two records will be 
added. This process is sometimes called synthetic estimation. 
After this, the corrected census file can be used to produce 
the corrected tabulation for all uses of census data.
    Mr. Chairman, I have tried to give a rather simple and 
quick basic description of the ACE and the documents listed in 
the appendix, and, of course, this fuller set of documents can 
be investigated for any more detailed questions that you might 
have. Thank you sir.
    [The prepared statement of Mr. Prewitt follows:]

    [GRAPHIC] [TIFF OMITTED] T1389.016
    
    [GRAPHIC] [TIFF OMITTED] T1389.017
    
    [GRAPHIC] [TIFF OMITTED] T1389.018
    
    [GRAPHIC] [TIFF OMITTED] T1389.019
    
    [GRAPHIC] [TIFF OMITTED] T1389.020
    
    [GRAPHIC] [TIFF OMITTED] T1389.021
    
    [GRAPHIC] [TIFF OMITTED] T1389.022
    
    Mr. Miller. Thank you, Director Prewitt. I'm not going to 
enter all that in the record. It will make it too long and 
lengthy. So I will appreciate having the access to that. Let me 
briefly make a comment about the issue of transparency and 
openness, and I hope like you that we get beyond this very 
quickly.
    However, let me just explain the foundation for my 
concerns. Issues of transparency and access go right to the 
heart of one of the reasons of why I called this hearing today. 
The census is like a business placing an order. Last year the 
Congress placed a $7 billion order with the Census Bureau. This 
Congress had done everything it can to make sure we had the 
money to pay. Now the inventory is coming in, and I am equally 
responsible to those Senators and Representatives and the 
people they represent to make sure we get what we paid for. 
It's my job to check the inventory.
    It's also the job of the GAO, the monitoring board and the 
Inspector General and the National Academy of Sciences to 
review the 2000 census. Unfortunately, when I tried to check 
the inventory, the Bureau tells me I can't open certain boxes 
or I have got to wait 3 weeks while they check with 
headquarters or there are some boxes that are off limits. Let 
me give you a few examples.
    Last year the Bureau refused to provide this subcommittee 
with data from the 1990 census. They claimed it was protected 
by title 13 and it wasn't. And we are all sworn anyway, but the 
result was to delay the request for months.
    The Bureau also delayed providing information requested for 
the dress rehearsal for an entire year, effectively preventing 
analysis. Two months ago, I entered into the record a list of 
information requested by the monitoring board that were delayed 
by more than 60 days or refused. The Bureau also produced a set 
of guidelines that limited access to local offices by the GAO, 
the board and the subcommittee. And just last week we received 
a copy of an e-mail that gave me, my staff and representatives 
of the GAO reason to believe a Bureau employee was instructed 
to withhold information and was instructing subordinates to do 
the same.
    This week I received a letter from the Director requesting 
that I not call any Bureau employees without a Democratic 
staffer or a member of the Bureau present. Is this what is 
meant by transparent census free from political manipulation? 
If this is the routine during the relatively simple census, 
delayed information, limited access and obstructed 
investigations, how can we have confidence in the extremely 
complex statistical adjustment?
    How can we honestly say this process is free from political 
manipulation if we are not allowed to review the process, or if 
we are only allowed to look at certain parts of it under 
certain conditions with proper supervision of Democrats and 
Bureau employees?
    These developments are increasingly troubling and do not 
add to the credibility of this or future decennial censuses.
    My comments certainly do not reflect on you, Director 
Prewitt, and I think the people behind you. The nature of the 
concern is there is a contempt for Congress and the 
responsibility that we have, as the elected officials have for 
overseeing, not only want the $7 billion of the census, but the 
critical role the census is for our entire electoral process.
    It is rare that we have a copy of an e-mail like that and 
it is legitimate for us to be looking at that.
    Let me make another comment about the use of the PES and 
the BLS adjusted numbers. My understanding is that the BLS 
accepted adjusted numbers for very large areas, national 
populations, and for large States. But you are proposing 
releasing adjusted numbers for every State, county, city, and 
block in the country. That is a completely different use of the 
numbers than what BLS is using. At small levels of geography, 
adjusted numbers are not reliable, and in fact the Census 
Bureau doesn't use the adjusted numbers. Which raises a 
question of I see in your statement instead of using 
``adjusted'' numbers you started using ``corrected'' numbers, 
which implies that you have already decided that the 
adjustments are the correct ones, which to me almost 
politicizes the use of that word. So I am concerned that you 
start saying, well, this is the corrected one. You have 
obviously made a decision--not obviously but apparently instead 
of calling it adjusted numbers you are using corrected numbers 
and that is a political way to refer to those numbers.
    Dr. Bryant, the Director of the Census Bureau in 1990, 
originally supported adjusting the national numbers. But she 
decided not to adjust the intercensual estimates after 
extensive evaluation by the CAPE Committee showed the 1990 
adjustment was 45 percent error. Let me read from her decision, 
this is from the CAPE report: ``Work suggests, the CAPE 
committee's work suggests that no survey, either the high 
quality, well-controlled and interviewed 1990 PES of 170,000 
households or a larger one can be used to make a post census 
fine-tuning of an average undercount as small as 1.6 percent in 
all types of places, counties, and States. Given that, from 
little or no evidence that adjustment would improve the quality 
of sub-state estimates other than for a limited number of large 
places, the decision is not to adjust.''
    This is from the December 1992 Federal Register, which I 
would like to enter into the record, and without objection it 
will be included in the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1389.023
    
    [GRAPHIC] [TIFF OMITTED] T1389.024
    
    [GRAPHIC] [TIFF OMITTED] T1389.025
    
    [GRAPHIC] [TIFF OMITTED] T1389.026
    
    [GRAPHIC] [TIFF OMITTED] T1389.027
    
    [GRAPHIC] [TIFF OMITTED] T1389.028
    
    [GRAPHIC] [TIFF OMITTED] T1389.029
    
    [GRAPHIC] [TIFF OMITTED] T1389.030
    
    [GRAPHIC] [TIFF OMITTED] T1389.031
    
    [GRAPHIC] [TIFF OMITTED] T1389.032
    
    [GRAPHIC] [TIFF OMITTED] T1389.033
    
    [GRAPHIC] [TIFF OMITTED] T1389.034
    
    [GRAPHIC] [TIFF OMITTED] T1389.035
    
    [GRAPHIC] [TIFF OMITTED] T1389.036
    
    [GRAPHIC] [TIFF OMITTED] T1389.037
    
    [GRAPHIC] [TIFF OMITTED] T1389.038
    
    [GRAPHIC] [TIFF OMITTED] T1389.039
    
    [GRAPHIC] [TIFF OMITTED] T1389.040
    
    [GRAPHIC] [TIFF OMITTED] T1389.041
    
    [GRAPHIC] [TIFF OMITTED] T1389.042
    
    Mr. Miller. Director Prewitt, if you plan to release 
adjusted numbers at block level, please be prepared to defend 
the accuracy at that level. Don't tell me that because some 
agencies have elected to use adjusted numbers at the national 
level we should adjust the population for all 6 million blocks 
across the country.
    A part of your statistical design hinges on using race, age 
and other characteristics to characterize people on what you 
call post-strata. For example, one category would be Asian 
women living in small metropolitan areas, age 30 to 49, renting 
their living space. And while the exact number has changed 
several times, I believe the current design is made up of 448 
such categories; is that correct?
    Mr. Prewitt. Yes, sir.
    Mr. Miller. In these post-strata or profiles, when you say 
Asian, do you make distinctions between Japanese, Chinese, 
Laotians, Koreans or other Asian cultures?
    Mr. Prewitt. No, sir.
    Mr. Miller. Do you make a distinction between Japanese, 
Chinese, Laotian, Koreans or others, or is it all just Asian?
    Mr. Prewitt. It's all Asian.
    Mr. Miller. On Hispanics, do you lump confidential Cuban 
Americans, Puerto Rican Americans and Mexican-Americans?
    Mr. Prewitt. Yes, sir.
    Mr. Miller. And they are all Hispanics?
    Mr. Prewitt. They're all Hispanic.
    Mr. Miller. And so the assumption is they all respond in a 
similar manner?
    Mr. Prewitt. Correct. That is the assumption, yes, they 
have similar capture probabilities, is how we would put it.
    Mr. Miller. Well--so, the Cubans in Miami, the Puerto 
Ricans in New York, the Hispanics in Houston or Los Angeles all 
have the same characteristic response rates? Guatemalans, 
Hondurans in Miami, they all have the same as the Cubans? I 
find that hard to understand and grasp.
    I think if you talked to the Cubans in Miami or the 
Mexicans in Los Angeles, they may not totally agree with that, 
that they are all homogeneous as you assume.
    Mr. Prewitt. No, I said they all have the same capture 
probability, which is to say the chances of enumerating them in 
the basic census are roughly similar. Now, let us make certain 
that we understand that we're not just talking about Cubans or 
Hispanics, we are also talking about 17 or 16 other sets of 
characteristics. Do they own? Do they rent? What is their age? 
What is their gender? So it is not simply the ethnic or racial 
characteristics. It is a cluster of characteristics that create 
a post-stratum.
    Mr. Miller. As I understand, the post-strata design 
adjustments for various categories will be applied the same way 
across the entire Nation. For example, Hispanic men age 18 to 
29 in large cities in rental housing in areas with high mail 
return rates. As I read that, it sounds like as long as they 
fit that description, Cubans living in Tampa will get the same 
adjustment as Mexicans living in Houston and Puerto Ricans 
living in New York and so on across the country. That is 
correct?
    Mr. Prewitt. Yeah, it turns out they have very similar 
capture probabilities. That is why it is correct.
    Mr. Miller. Let me ask you about Puerto Rico. You have 84 
post-strata classifications for Puerto Rico; is that right? For 
Puerto Rico, you have 84?
    Mr. Prewitt. Checking.
    Mr. Miller. OK. OK. My understanding is there was 84. Does 
Puerto Rico have the separate strata but Texas, Chicago, 
California and New York are treated separately? How is that? 
Why don't we have separate classifications of post-strata for 
Texas, California, Chicago or New York City, but we have all of 
these strata classifications for Puerto Rico? Why is Puerto 
Rico singled out? I mean, they are all Hispanic or most all 
Hispanic. But then----
    Mr. Prewitt. Before we turn to Puerto Rico, let me address 
the first part of your question. Can I just go back a bit? You 
have asked a large number of questions to get to this very 
particular one. And I don't want to readdress all the access 
questions, but I do think that nearly every one of those things 
that you mentioned in your response on the access question have 
been answered before and continue to be answered. We talked 
about a terrabyte of information, 52 million yellow pages worth 
of information. We have met repeatedly with the GAO and the 
monitoring board. There are no access questions, there are no 
transparency questions that I know to be on the table right 
now, sir.
    And you chide us about having guidelines. On the other 
hand, you were the one who asked me in a hearing to please 
create some guidelines so that we could all sort of understand 
and move forward in this census without disrupting it. So I 
find it a little odd that now we try to have some guidelines 
and we are chided for that. So it is kind of either way.
    Mr. Miller. It is interesting that you have given me 
guidelines on my behavior. I mean, my letter that you received 
the other day is that you are telling me who I can call and who 
can be present in a phone call. I'm the elected representative 
of the people.
    Mr. Prewitt. Of course, you can do whatever you want and 
will do whatever you want. We then get pressure from the 
minority wanting to make exactly the same calls. I don't know, 
I don't know whether you want to call 100 people and put them 
on tape, or 10 people, or 200 people.
    And we're just trying to sort of manage the process right 
now. We're trying to finish the census. It seems kind of 
reasonable to us to say, if possible, let's try to coordinate 
these phone calls. But no, you can call anyone you want to in 
the country. We will give you the phone numbers of 500,000 
employees.
    Mr. Miller. By the way, it was very easy to locate the 
gentleman in question and he was a very pleasant call.
    Mr. Prewitt. I am also very pleased that you made reference 
to the fact this is a rare e-mail. Of course it is rare. That 
is why you had to pay such attention to it because there is not 
a pattern of such e-mails.
    But back to the ACE. You said in your opening comments that 
the Bureau of Labor Statistics used the data at the national 
level and State level and substate levels, but primarily you 
are absolutely correct. I would just like to make certain that 
you understand that the Census Bureau believes that local area 
data are unstable irrespective of whether they are corrected or 
not.
    We think that the apportionment number, which is based upon 
the basic enumeration, is unstable at the local level. We don't 
have a whole lot of confidence in block level data, period, 
however they are collected, because it is the nature of very 
small area data that that is where errors can get magnified.
    So we are just as worried about block level data 
preadjusted or precorrected as we are post adjusted and post 
corrected. It is just a fact of the nature of statistical 
operations.
    So when you say that we have to be absolutely correct at 
the local level, we would--if that were the standard, we would 
not be able to give this country the redistricting data based 
upon the initial census, because we couldn't stand behind that 
data at every local level. We just couldn't do it. So it is not 
an issue of whether it is adjusted or unadjusted----
    Mr. Miller. Which is more correct--which is more accurate 
at the block level, the actual count or the adjusted, or you 
want to call it the corrected number at the block level? Which 
is more accurate?
    Mr. Prewitt. Oh, undoubtedly the adjusted number is more 
accurate across----
    Mr. Miller. At the block level?
    Mr. Prewitt. Oh, yes, absolutely. At the block level we are 
missing--we know in certain blocks in Chicago, heavily 
comprised of African-Americans who rent their housing who are 
young males, we're missing a large number of them.
    Mr. Miller. You have already decided then that the 
adjustment is going forward and that is going to be more 
accurate, the adjusted numbers at the block level. Why did the 
Census Bureau not use the adjusted numbers for the intercensual 
estimates? Why did the BLS use it only for the national numbers 
or very large State numbers and not for--and we have all used 
the unadjusted numbers? Now you are saying it is more accurate 
or corrected, the political term you are using.
    Mr. Prewitt. I am sorry that you are concerned about that. 
We use the word ``adjusted'' and ``corrected'' interchangeably.
    Mr. Miller. ``Corrected'' is a new use of the word, I 
think. You have been using ``adjusted,'' and I think that is 
more appropriate.
    Mr. Prewitt. Well, I have been using the word ``corrected'' 
since I got here. I am happy to use the set of terms you want. 
They are interchangeable as far as we are concerned.
    The decision has not been made, sir. The decision that has 
been made is to proceed with the ACE procedure. And indeed, as 
I said, we are now over 20 percent finished with the collection 
of the data.
    We have theoretical reasons for believing that this will 
produce more accurate numbers. We also have to test the 
operations. Your concern about whether this is a spaceship to 
Mars that may blow up is an understandable concern. That is 
also true of the census. It is also true of the enumeration. 
Any one of our operations could have blown up. We are very 
pleased that we are now about 85 percent finished with the 
census and it hasn't blown up. And we've had many, many 
hearings about why that is so. We are really very pleased with 
the operational robustness of this census.
    But it is not in the nature of one operation versus another 
operation that it can turn into difficulties. Any operation 
will run into difficulties, including the new operation--not a 
new, but an operation that we have not talked about in this 
subcommittee called coverage improvement followup, which is 
going to have 7\1/2\ million households in it. We have not done 
that one yet. It may not work well. If it doesn't work well, 
that will have an impact upon the quality of the apportionment 
numbers.
    So it is not something special with the ACE which makes it 
vulnerable. Any big complex field operation is vulnerable. The 
good news is we're 85 percent finished with the census without 
having had one. We still have 15 percent to go and it is a 
very, very hard 15 percent because we are now down to the 
difficult cases.
    So we have made the decision that based upon statistical 
theory, capture-recapture technologies are able to improve a 
basic count. That's the decision that we have made and we have 
designed an operation to do that.
    Mr. Miller. Well, I think we are all pleased that the full 
enumeration is proceeding as it is. I think from the mail 
response rates to the nonresponse followup is proceeding 
apparently ahead of schedule. And that is the positive thing.
    But ACE, there is legitimate differences within the 
statistical community, as you are well aware of, and to say 
that this is already going to be the corrected number, and the 
other one is an incorrect number by inference--when you say one 
is correct that means the other one is incorrect--is 
politicizing the process, and that is unfortunate.
    Mrs. Maloney.
    Mrs. Maloney. Thank you very much. I feel that the chairman 
often will invoke a person's name who is not here and use it as 
evidence and they're not here to speak for themselves. He did 
it last week with Mr. Rodriguez, a Marine, the civil servant, 
the young man who was working in the census office. He wasn't 
here to speak for himself. Now we have his written letters. We 
know what he said. But earlier he mentioned the names of Dr. 
Barbara Bryant, the Census Director under former President 
Bush, and let's have her come here and speak for herself on how 
she feels about modern scientific methods.
    And he mentioned the name of Dr. Janet Norwood and his 
conversation with Dr. Janet Norwood from the National Academy 
of Sciences, implying that she did not support the plan of the 
agency. Well, may I suggest, respectfully, that we invite Dr. 
Norwood to come and speak for herself. I have a May 3rd, 1999, 
letter from Dr. Norwood that I would like to put in the record 
that appears to indicate that she supports the plan of the 
agency, ``In general, the panel concludes that the ACE design 
work to date is well-considered. It represents good, current 
practice in both sample design and post design as well as the 
interrelationship of the two.'' And I'd like to put that in the 
record.
    So very respectfully, I suggest that we have these people 
come and enter their own testimony as opposed to an 
interpretation by the chairman.
    And I would like to ask you, Dr. Prewitt, have you had any 
conversations with Dr. Norwood? And what is your interpretation 
to date on her support of the agency's plan?
    Mr. Prewitt. Well, Dr. Norwood is of course the chairman of 
the standing committee now of the National Academy of Sciences 
that is looking over all of our plans for the accuracy and 
coverage evaluation as well as the basic census, so obviously I 
go to all of their meetings that are publicly open. I am 
frequently asked to testify or to present materials before that 
committee, so yes, I have attended every one of the meetings of 
this committee and have had conversations with Ms. Norwood in 
that context.
    I believe that to try to get the facts exactly on the 
table, the letter to which you refer, which is of course over a 
year old, written May 3, 1999, was based upon the degree of 
work that had been done to that date, and there has been a lot 
more work done on the ACE design since that date. And that's 
what is represented by this stack. That is--the size of the 
stack about a year ago would have been, you know, a quarter to 
a fifth of this size because we hadn't done a lot of the 
technical work then. So based upon the technical work that had 
been done, which was the early sampling design this is the 
judgment that the committee wrote in that letter of May 3rd.
    I think it is correct to say that the National Academy 
committee has not, ``signed off on'' the full design because 
they haven't met since the full design has been completed. 
There are now 106 major decisions that have to be made with 
respect to the ACE design; 104 of those have been made. The two 
which have not been made have to do with weight trimming 
methodology, and varience estimation, the specific criteria for 
weight trimming methodology. And under variance estimation we 
haven't fully finished talking through technically the specific 
criteria for incorporating controlled rounding into generalized 
variance estimation. Those are the only 2 out of 106 major 
decisions that have not yet been completed.
    You know, we're talking about those all the time right now. 
In the next couple of weeks we will have resolved those. We 
will put them in a piece of paper and they will join this stack 
and they will be sent to this subcommittee if they want them 
and also to the National Academy.
    So I think it is fair to say that they haven't, ``signed 
off on'' the final design because no one could have. The final 
design did not exist on May 3rd nor indeed, as of yesterday 
whenever the chairman talked to Ms. Norwood it did not exist. 
So I think the National Academy committee has been extremely 
useful to us, looking at our work, judging it, passing back 
suggestions and recommendations to us, holding public events. 
They had a major public event on the design earlier this year 
and another one is scheduled for September.
    So we don't expect them to have signed off on a design that 
has not yet been completed. I think the chairman is quite 
correct. They need to see it and they will see it as soon as it 
is completely finished, and we are very close to having it 
completely finished.
    Mrs. Maloney. Dr. Prewitt, a number of people have 
suggested that the use of statistical methods to correct errors 
in a census opens the process to political manipulation. Would 
you please explain to us whether or not you believe that to be 
true, and what can be done to assure the public that no such 
manipulation occurs?
    Mr. Prewitt. Well, needless to say, there are few charges 
that bother the Census Bureau as much as that one does. To my 
knowledge, the decision memo by Secretary Mosbacher in 1991 was 
the first time a senior official of the U.S. Government ever 
put on record the possibility that the Census Bureau could 
design a procedure in anticipation of it having a given 
partisan outcome. And what he said is that the political 
outcome of a choice, that is of a statistical procedure, can be 
known in advance. He says: ``I'm confident that political 
considerations played no role in the Census Bureau's choice of 
an adjustment model for the 1990 census. I am deeply concerned, 
however, that adjustment could open the door to political 
tampering with the census in the future.''
    This put on record the idea that the Census Bureau could 
design something having a known partisan outcome. Let me just 
say that this strikes me as ludicrous on the face of it. The 
Census Bureau does not have the competence to predetermine 
partisan outcomes. It has no statistical expertise in 
reapportionment or redistricting, no expertise on trends in 
voting behavior. To predetermine partisan outcomes the Census 
Bureau would need to bring to bear such expertise when it 
selected data collection methodologies several years in advance 
of when the census counts are actually to be used for 
reapportionment or redistricting.
    It is simply way beyond the Census Bureau's competence or 
capacity. Even if the Census Bureau intended to do it, it would 
not know how to do it. It doesn't have the competence, it does 
not have the interest, and it certainly does not have the 
professional position that that is what this job is.
    I would like to point out that there are a large number of 
oversight agencies--this subcommittee, the Congressional 
Monitoring Board, the Inspector General--and there are some 
several dozen reporters who follow the census very closely. 
There are public watchdog organizations. There are National 
Academy committees. There are a large number of people who, if 
they could find partisan manipulation of this census, would be 
the first to report it. And I can only say we are now getting 
toward the end of the census and no such incidence has ever 
been revealed. Where is the evidence that the Census Bureau is 
designing things to have a partisan outcome? What kind of 
capacity would we have to have? We don't have it. We wouldn't 
know how to do it. We don't care about it. We don't pay any 
attention to redistricting data or voter trend data or what 
Governor controls what State. We don't pay any attention to 
that stuff, because we're actually trying to do a census and 
that is the kind of capacity we have.
    So I just think the charge that the Census Bureau itself 
has a partisan agenda should be dismissed. I invite the 
Congressional Monitoring Board to try to determine this and 
find it and reveal it. I begged the cochairmen to have a 
hearing just on this issue, and they have not yet done it.
    So I just find that concerning this charge that was put in 
the books 10 years ago, almost 10 years ago, there has never 
been any evidence put on the table. I just wish someone would 
put the evidence on the table so we could answer it.
    Mrs. Maloney. I'd like to ask an operational question on a 
non-ACE topic. You stated today that the Bureau had completed 
50 percent of the nonresponse followup, and that sounds 
remarkably good at this point. Are you ahead of schedule, 
behind schedule? Could you comment on this number and exactly 
where are you?
    Mr. Prewitt. Well, we are always cautious, of course. 
Choosing my words carefully, we are not displeased to be at 50 
percent. On the other hand, the hard cases are yet before us. 
We are now running into gated communities, a much higher 
density of gated communities, where we are having a very 
difficult time getting past the doorman. And yet we know we 
have a low response rate from those areas. We are certainly now 
running into the difficult cases in the inner city and the 
African-American population that Congressman Davis just 
referred to. We are in the difficult cases in the immigrant 
populations.
    So to say that we are 50 percent where we need to be is, 
indeed, good news. And as I say, when you put that together 
with the mail-out, we are about 85 percent finished with the 
census. But we are now down to the hard cases and as I have 
said in my written testimony and I have said many, many times, 
at the end of the day, we will not get everyone. We would love 
to be proven wrong, but we have had too many people already say 
I will not answer this or I don't care what you say, you can 
put me in jail--I have given you some of that evidence before--
so we will not be able to get everyone in the census.
    Mr. Miller. Thank you. Mr. Ryan, if you will let me make 
one comment first, and that is the question on the political 
manipulation of the census. I would like to insert in the 
record the Supreme Court decision concurring that Justice 
Scalia said, and he used the phrase that an estimation was more 
likely to be politically manipulated than the full count.
    The Supreme Court is even saying that there is a difference 
of potential political manipulation. And I would also like to 
include in the record the CRS report on adjustment, because the 
CRS said, as I said in my statement, that the Supreme Court 
ruling precluded the use of sampled data for redistricting. Use 
of money and other things is a different issue. But for 
purposes of redistricting, it did not rule that it was illegal.
    So with that, and with the inclusion of those, without 
objection I am including both of those statements, Mr. Ryan.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1389.043
    
    [GRAPHIC] [TIFF OMITTED] T1389.044
    
    [GRAPHIC] [TIFF OMITTED] T1389.045
    
    [GRAPHIC] [TIFF OMITTED] T1389.046
    
    [GRAPHIC] [TIFF OMITTED] T1389.047
    
    [GRAPHIC] [TIFF OMITTED] T1389.048
    
    [GRAPHIC] [TIFF OMITTED] T1389.049
    
    [GRAPHIC] [TIFF OMITTED] T1389.050
    
    [GRAPHIC] [TIFF OMITTED] T1389.051
    
    [GRAPHIC] [TIFF OMITTED] T1389.052
    
    [GRAPHIC] [TIFF OMITTED] T1389.053
    
    [GRAPHIC] [TIFF OMITTED] T1389.054
    
    Mr. Ryan. Dr. Prewitt, let me start with a couple of 
questions and then I would like to--I guess we are getting down 
to this issue, the politicizing this thing. Have you made the 
final decision to adjust the census numbers according to the 
result of the ACE? You have made that final decision; correct?
    Mr. Prewitt. No, sir, we will not make that final decision 
until February, March 2001.
    Mr. Ryan. In your written testimony, you indicate that you 
would not release the adjusted numbers if they did not meet the 
Bureau's standards of accuracy, and you said a review of the 
ACE, quote, should take into consideration a review of selected 
measures of quality.
    Specifically what are our measures of quality and when were 
they established?
    Mr. Prewitt. Yes, sir, that is indeed the topic of our next 
meeting with the National Academy of Sciences. We're working 
these through right now. We are presenting these publically 
well before we make the decision in September. Can I give you 
one example?
    Mr. Ryan. Sure.
    Mr. Prewitt. Let us say we get the results back from the 
accuracy and coverage evaluation and we have a higher than 
expected undercount in inner cities of the White population 
which owns its own home. That is something we don't expect. 
Well, it may well be since 1990 to 2000 there has been a lot of 
gentrification and a lot of this gentrification is now in gated 
communities and these people are not returning their 
questionnaires and we get an unexpected undercount in a 
population group where we did not expect it.
    When we get that pattern, what we will do is say can we 
explain it? If it is a pattern we can't explain, it will make 
us nervous and we will have to figure it out. If we can explain 
it because there are now more gated communities in inner cities 
that happen to be owned and inhabited by Whites who normally 
give us answers to this, we will say now we have an explanation 
for something that otherwise looks to be anomalous.
    So that is what I would mean by looking at our own results 
before we make the final decision.
    Mr. Ryan. OK. And at your request, the National Academy of 
Sciences has a special panel that has been convened, headed by 
Janet Norwood, which we have been discussing today, to review 
this. How important do you believe is the task of this panel? 
And do you know what their time line is? What is going to be 
the time line of the panel for evaluating the statistical 
methods?
    Mr. Prewitt. Well, we think this panel is very important, 
and our work with the National Academy of Sciences has been 
very important over the entire decade. However, the decision 
itself about what the Census Bureau is obligated to do to 
fulfill its constitutional and other statutory obligations is 
clearly a decision of the Census Bureau and not an independent 
committee of the National Academy.
    Mr. Ryan. Let me ask you this: Will you wait for the 
evaluation of the panel before you release your adjusted 
numbers?
    Mr. Prewitt. Well, of course not. We have to release our 
adjusted numbers according to our statutory deadlines.
    Mr. Ryan. Let's get to the political part of this.
    Mr. Prewitt. I don't know when they are going to do their 
evaluation. They are independent of us.
    Mr. Ryan. Let me get to the political part of this, and I 
understand your comments where you say this is ridiculous that 
the census could be politicized. Well, I don't see you as a 
political person. I don't see those who work with you at the 
Census Bureau as political people. I see you as doing a job and 
you have done a good job of enumeration and I would like to 
give you credit for that. You are working at a statistical 
adjustment. You are doing what you have been trained to do.
    But your boss is the President of the United States. Your 
boss below him is the Secretary of Commerce. Very political 
people, the head of another political party. So you can 
understand why you would see these kinds of allegations. I 
don't think people are saying Ken Prewitt is a politician who 
is seeking political ends with the statistical adjustment. But 
you can see it is very rational to take a look at the situation 
and who you work for and then make those conclusions.
    The concern that I think many people have is the compressed 
timetable. In 1991, the Bureau discovered a computer error in 
the PES system that threw the undercount off by a million 
people. Then during a series of evaluations that took about 2 
years the Bureau discovered more errors in the system that 
added millions of people erroneously. Now so far in the census 
research has shown that the Bureau has had two computer errors. 
One printed 120 million wrong addresses, the other failed to 
print millions of surnames. These things happen. But given the 
1990 experience, and given that small computer errors produce 
millions of problems very easily in the adjustment, there is 
cause for concern.
    So can you understand that people in Congress and in the 
scientific community are alarmed at the prospect of making 
adjusted numbers official after less than 4 months of 
evaluation? That is the cause for concern. And the other 
question I have in that is are you trying to have the official 
numbers done by January 20th? Is that a deadline that you are 
trying to shoot for?
    Mr. Prewitt. You mean the redistricting numbers? The 
apportionment numbers?
    Mr. Ryan. Yes.
    Mr. Prewitt. Absolutely not, sir. There is no way we 
could----
    Mr. Ryan. The official adjusted numbers, not just the 
redistricting numbers. And--well, I will let you answer.
    Mr. Prewitt. I think I know where you are going. There is 
of course the apportionment number, which is December 31, and 
that will be finished on schedule. There is then the 
redistricting number, which is April 1st. The current plan for 
redistricting numbers is that they will be adjusted numbers or 
corrected numbers. Under no circumstances would our schedule 
allow us to produce that data tape prior to January 20th.
    Mr. Ryan. I understand. I understand that the official 
adjustment leads to the redistricting numbers. But don't you 
think it is a reasonable concern that given the problems that 
can occur with an adjustment, that a 4-month timetable is 
relatively rapid?
    Mr. Prewitt. Oh, yes, sir. In fact, I would say, 
Congressman Ryan, that trying to get the basic census done in 9 
months puts a lot of pressure on us. And, indeed, a coding 
error can occur in the enumeration process as well as in the 
correction process. It can just occur, and the ones that you 
have cited occurred in the basic census. And indeed it is quite 
possible that we will find out 2 years from now that we made 
some error. We don't expect to find that in the enumeration, 
but if so, we would have already reapportioned and we would 
have to say ``too bad,'' we made an error and there it is.
    It is not something unique to the ACE process, it is 
something that is a characteristic of the entire process.
    We obviously learned a lot based on 1990 and 1980, where we 
did these exercises, and we have put in place--and this is what 
this documentation is all about--we have put in place with 
respect to our software development work enormous layers of 
redundancy. We are double-coding every piece of software in the 
ACE estimation process. And then we have compared the results 
of two completely separate writings of the software code. And 
we have built in quality assurance processes.
    So we know it is a tight time schedule, but so is the 
census a tight time schedule. Everything in this process is a 
tight time schedule. We are pleased that the errors that have 
been discovered so far did not have operational consequences 
and they were, out of 2,500 different pieces of software, one 
or two.
    Mr. Ryan. The last thing I would want to do is force you to 
do sloppy work by making you compress into an artificially 
chosen timetable. Let me go back to the fact that the task of 
the National Academy of Sciences, at your request, is to 
evaluate the quality and accuracy of the ACE. Why will you not 
wait for their review of your data before releasing your 
official adjusted numbers?
    Mr. Prewitt. Because we have a statutory deadline that says 
we must release numbers by April 1st. The National Academy of 
Science will take a couple of years. We always ask the National 
Academy of Science to evaluate our work.
    Mr. Ryan. What good is their analysis if you are not going 
to wait for it?
    Mr. Prewitt. Just the way the 1990 analysis helped us plan 
2000, their 2000 analysis will help us for 2010. That is just 
the nature of the system. We cannot delegate--we cannot 
delegate, as the Census Bureau, the decision about what numbers 
to give this country to an independent agency.
    Mr. Ryan. I'm not saying you're delegating the decision to 
an independent agency as to what numbers you give. But if 
you're asking the scientific community to review your data, to 
review the accuracy of your data before making them official, 
you ought to wait for them to review your data before making 
them official. That is where I think the point can be 
adequately made under reasonable terms that there could be a 
politicization of this process. That is the concern. If you are 
not going to wait for the scientific community to look at the 
data, to look at the accuracy, to make sure things were done 
correctly, and rush to get these data--these adjusted numbers 
out there in an official capacity, then why bother? Those 
questions I think are very serious questions.
    One more question and I see you are going to answer it. If 
you were to release the numbers early how much kind of warning 
would Congress have when you release the adjusted numbers?
    Mr. Prewitt. If we release them early? You mean prior to 
April 1st?
    Mr. Ryan. Yes.
    Mr. Prewitt. We historically have released adjusted numbers 
on a flow basis. That is as soon as we finish a State we 
release it. And we have certain States that have faster 
deadlines than other States with respect to redistricting. And 
that is what we have informed the States, we will get to them 
as soon as possible. We do not expect to have any State 
completed before early March. But I can imagine that we will 
have States out as early as March 5th, some States out March 
11th. We are going to be driving toward an April 1st deadline.
    I'm not sure what you mean by informing Congress of this. 
We normally simply release redistricting data tapes on a flow 
basis starting as soon as we can. I am happy to tell the 
Congress when we have that schedule. There is nothing secret 
about that schedule.
    Mr. Ryan. That would be appreciated.
    Mr. Miller. Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. 
Mr. Chairman, let me yield for a moment to the ranking member.
    Mrs. Maloney. I thank Mr. Davis for his yielding and for 
his outstanding leadership on this issue.
    I just wanted to respond to the series of questions that my 
dear friend and colleague, Congressman Ryan, was putting forth 
and ask you, Dr. Prewitt--Director Prewitt, can we expect from 
you the same independence and independent judgment and action 
that we saw in Dr. Barbara Bryant when she opposed former 
President Bush and Secretary Mosbacher and came out for modern 
scientific methods because she believed in them? We have a long 
history of independence in the Census Department and in Census 
Directors in speaking out for what they think is right for an 
accurate count for America. Can we expect the same type of 
independent action on your part?
    Mr. Prewitt. Congresswoman Maloney, if the Census Bureau 
looks at the adjusted data, the corrected data in February-
March and if I am then the Director and we decide that these 
data have some serious flaw in them, we will simply not release 
them. And irrespective of what the President of the United 
States wants, whoever that may be at that time, irrespective of 
what the Secretary of Commerce wants--now if they make us do 
it, as Mr. Mosbacher overruled Dr. Bryant, I don't know what we 
would do. But certainly the Census Bureau would not wish to 
release any data product in which it did not have confidence.
    I might say, continuing on this line if I could for a 
moment, that I believe that in 1980 that the decision about 
whether to adjust or not was left to Vince Barbara, then the 
Director of the Census Bureau. I think that is the proper level 
for this decision. And in 1990, the decision was not left to 
the professionals at the Census Bureau; instead, it was made at 
the Secretary of Commerce. I would strongly urge, strongly urge 
that the decision in 2000 be made by the level of the Census 
Bureau, regardless of who may be the Secretary of Commerce at 
that time. But I believe that this is not a decision that 
should be made at the level of the Commerce Secretary, but 
should be made at the level of the Census Bureau itself and its 
Director.
    Indeed we have in place a standing committee that meets 
every 2 weeks that goes through all of this technical stuff, 
and it is designed to follow the ACE process very closely, both 
in terms of its statistical theory, in terms of its operations, 
and then make a recommendation to the Director as to whether to 
use it or not.
    Just if I could continue for a second, Congressman Ryan, I 
did not fully--I do understand some of the concerns. I'm not 
trying to dismiss the concerns. I'm only trying to say that 
there is no evidence for those concerns. And even if a member 
of the Supreme Court says that it could happen doesn't mean it 
could happen. I don't know technically. If you think about it, 
you are sitting there trying to generate these data and you are 
now saying in what State is there a redistricting battle in 
which there is a Governor of this party and a legislature of 
this party and what are the processes and what would we have to 
do to get the data--I mean, if you actually think about it for 
a moment practically, how in the world would we do it?
    Are we sitting there sort of looking at voter turnout in 
different States? Are we sitting there looking at the balance 
of power between the legislative and executive branches in 
different States? Do we even understand how different States do 
redistricting? If you actually look at it practically, it is 
inconceivable that the Census Bureau in that environment of 
trying to produce good data is now going to take on this extra 
task of finding out what are the likely political implications 
in a given State.
    It's just not in the cards, and I don't see how people can 
think it is in the cards. I don't care if they are on the 
Supreme Court, sir. I don't know what evidence he has to make 
that accusation. I simply don't know what the basis of that 
accusation is.
    Mr. Davis of Illinois. Reclaiming my time, you know as I 
was listening to my friend and colleague from Wisconsin, I was 
saying to myself, as he described the hierarchy relationship of 
the executive branch that there is no way that he would think 
that people with the name Daley and Clinton would be seeing 
this in a political way.
    Mr. Ryan. Never, ever.
    Mr. Davis of Illinois. They wouldn't by no stretch of the 
imagination.
    Dr. Prewitt, let me try and make sure that I understand 
some of the technical language. It is my understanding that 
capture probability does not necessarily mean that everybody in 
a category are the same, but there are enough similarities that 
in terms of the probability of them being counted or enumerated 
becomes essentially the same.
    Mr. Prewitt. That is exactly correct, sir, yes, sir.
    Mr. Davis of Illinois. So they don't have to have all of 
the same characteristics but there are enough factors----
    Mr. Prewitt. They are certainly not clones of each other as 
was suggested. We have done a lot of research for 40 or 50 
years on this, and what we do say is what are the probabilities 
that we will include in the census people with this set of 
characteristics. That's all it says. It doesn't say they are 
alike in all other ways; just how similar are they with respect 
to the probability of catching them in the census.
    Mr. Davis of Illinois. In statistical language, is there a 
difference between correctedness and accurateness?
    Mr. Prewitt. Yes, sir. Accuracy really has to do with the 
truth. And all statistical operations are estimations of the 
truth. That is true of the basic census. There is a true number 
of people who lived in the United States on April 1st. Our 
census is an estimation of that. We use the ACE to get closer 
to estimating that truth.
    ``Accuracy'' would be if we actually found and counted 
every one of them. We will never be able to do that for you. We 
believe we will get you closer to the truth by using this 
process, or we wouldn't be doing it. Why else would we do it? 
We have lots of things to do. We only do statistical procedures 
because we believe they get us closer to the truth. So accuracy 
has to do with how close to the truth can we get.
    Mr. Davis of Illinois. And so the closest that you could 
possibly get would be through the use of corrected data? Is 
that accurate?
    Mr. Prewitt. We believe so.
    Mr. Davis of Illinois. And so it becomes almost--I mean, we 
are trying to get as close as we can----
    Mr. Prewitt. Yes, sir.
    Mr. Davis of Illinois [continuing]. To making sure that 
every person in the country is, indeed, accounted for.
    Mr. Prewitt. Yes, sir.
    Mr. Davis of Illinois. And so without using the corrected 
data, we would obviously then just say to ourselves that we are 
going to leave those individuals out.
    Mr. Prewitt. Mr. Davis, I could answer that as follows: let 
us say that in 2000 we were not doing an accuracy and coverage 
evaluation. We were simply doing the basic count and then 
stopping and then we came up with a number, 275,311,000 or 
whatever. It would be my judgment that a more accurate number 
to give to the country would be that number plus 1.6 percent. 
Which is to say, I would still rather use the 1990 estimate of 
the undercount even for the 2000 data if we were not doing an 
accuracy and coverage evaluation. I would be convinced that 
that number that we counted plus 1.6 percent would be a more 
accurate number than simply stopping with the basic count. We 
will do better because the accuracy and coverage evaluation 
that we have in place for 2000 is a much better tool to use 
than one from 1990, but even one from 1990 would give us a more 
accurate count, one that was closer to the truth than simply 
stopping with the basic enumeration.
    Mr. Davis of Illinois. I know that we have talked a great 
deal about enumeration and there is a cutoff period. There is a 
time when we expect to have this done. Should we continue to 
experience difficulty in some areas, will that cutoff date be 
adhered to or is there any way to continue up to a point of 
satisfaction?
    Mr. Prewitt. We will certainly continue, Mr. Davis. We 
expect across 520 offices to have completed most of our work in 
most of them by our cutoff date, which is July 7th. But that is 
not a cutoff date; that is a date in our master activity 
schedule. But certainly, as was true in 1990 and all censuses, 
there are always some local offices where we have not fully 
exhausted all of our procedures and we will continue in those 
areas until we have exhausted all of our procedures, until we 
cannot think that going back yet again is likely to give a 
response at that household.
    Mr. Davis of Illinois. And so one can expect that every 
effort or maximum effort will be made to make sure that we even 
reach those individuals that we are having difficulty with.
    Mr. Prewitt. Yes, sir, but at a certain point, we know that 
we are simply wasting taxpayer dollars. And so at a certain 
point we are better off--I mean, how many times do you want to 
go back and knock on a door where nobody ever answers and the 
person who answers says I don't care what you say to me, I'm 
not going to give you that information. We could send that 
person back 4 times, 6 times, 27 times----
    Mr. Davis of Illinois. In some instances it would remind 
me, if you just keep doing it of, you know, a young woman met a 
soldier and wanted to get married and she said: Soldier, 
soldier, would you marry me with your fife and drum, and he 
said no, pretty miss, I can't marry you, I don't have any 
shoes. So she ran and got him some shoes. Came back, same 
thing, would you marry me with your fife and drum? No, pretty 
miss, I can't marry you, I don't have a tuxedo to put on. So 
she ran and got the tuxedo and came back. And said, soldier, 
soldier, will you marry me with your fife and drum? Finally, he 
says no, pretty miss, I can't marry you because I've got a 
pretty little wife at home.
    And so it seems to me that you are saying at some point, 
people are going to say: Get away from my door, just don't come 
back----
    Mr. Prewitt. Yes, sir.
    Mr. Davis of Illinois [continuing]. Anymore. I mean, those 
individuals who are inclined to do so.
    Mr. Prewitt. Yes, sir.
    Mr. Davis of Illinois. Let me ask you, of course there has 
been a lot of conversation about my city, the city of the big 
shoulders, the city of Chicago, in terms of difficulty that we 
are having. Could you elaborate on what's going on there and 
what we are doing?
    Mr. Prewitt. Yes, sir, and Congressman Ryan will also be 
interested because it is not just the city of Chicago but the 
Chicago region. I do want to say that the Chicago region as a 
region is actually in fairly good shape. It is not our 
strongest region but it is certainly not our weakest region. 
Indeed, when you take into account both the mail-back response 
rate and the completion of the nonrespondent followup workload, 
the Chicago region is roughly in the middle right now and since 
the whole scale is high right now that means we are in good 
shape. Even in the very worst region we're actually in good 
shape.
    Now with respect to the city itself, I believe there are 
now four local census offices where we believe that we have had 
to improve the strength of our local management and we have 
done so. In some instances we have actually changed the local 
manager. In another instance we brought in additional 
management help. Sometimes what happens, Congressman Davis, is 
that there is more work going on than the system records 
because stuff just stacks up and somebody doesn't have to 
process that stuff every 6 hours to get it and so forth and so 
on. We are finding that out. That may not be an explanation but 
that may be part of the explanation in Chicago.
    I certainly think that we are running in Chicago into deep 
resistance to cooperating with the census. And that is actually 
happening at both ends of the economic scale. We are running 
into very difficult times in the near north in gated 
communities. These are people who are very busy. They are, you 
know, worried about their stock market returns and so forth. 
They did not send the return in and now we're having a hard 
time getting past the doormen who guard these buildings and it 
is extremely difficult.
    On the other hand, what we do is we do special things. We 
go to the building manager. If that doesn't work we go to the 
owner of the building. If not, we sometimes go to somebody 
influential in the city and try to get them to make that call. 
And at the other end of the economic scale, as you well know, 
the poverty people that you mentioned in your own district, 
those are very resistant people. They are disconnected from the 
society. They are indifferent to their obligations. They do not 
feel that the U.S. Government or the local government cares 
about them and why in the world should they cooperate with 
this?
    That's why we do an accuracy and coverage evaluation. We 
are doing one quarter of 1 percent of the households. When 
you're doing nearly one quarter of 1 percent of the gated 
communities with your very best people, you have a higher 
probability of getting in than when you are trying to do the 
entire universe of gated communities. It is the same thing with 
the young African-American male in the Robert Taylor home. It 
is very difficult to get them all.
    On the other hand, when you're doing one quarter of 1 
percent of them with your very best enumerators the 
probabilities have just gone way up that you will get them. And 
that is what we do in order to calculate the undercount.
    Mr. Davis of Illinois. After this is all over, does the 
Bureau have sociologists and researchers and people who will 
try and study the situation and make some determinations 
relative to this deep resistance that you spoke of?
    Mr. Prewitt. Yes, sir. Yes, we do. We did--after 1990 we 
had anthropologists and sociologists trying to help us 
understand these population groups.
    Mr. Davis of Illinois. Finally, I think it would certainly 
be good, and I understand that you are trying to make a trip 
out to Chicago to give whatever additional assurances to the 
elected officials and the citizens there that every effort is, 
in fact, being made to overcome the deep resistance that we 
might be experiencing, and I certainly look forward to that 
happening.
    Mr. Prewitt. Thank you, sir.
    Mr. Davis of Illinois. Thank you, Mr. Chairman. I yield 
back.
    Mr. Miller. Mr. Director, let me followup one more point on 
what I was asking earlier about the broad classifications we 
are using. And I would like to enter into the record a letter I 
received from Dr. Friedman, who is head of the Statistics 
Department at University of California at Berkley. He said, 
``It is assumed that all Non-Hispanic Asians age 0 to 17 living 
in rental units are equally likely to be undercounted from the 
suburbs of Honolulu to Chinatown in New York. This assumption 
is plainly false.''
    They have done studies to show that there are huge 
variations within post-strata across States and so there is a 
real concern about that. You are well aware of that concern.
    Let me now switch to the issue again of transparency with 
respect to the ACE. You indicated your intention to make the 
census fully transparent and free from charges of political 
manipulation. Will you commit to releasing the E sample and the 
P sample files from the ACE for analysis by the academic and 
scientific community as soon as they are available to the 
Bureau? They are not confidential files and for 1990 they were 
not made available until 1998.
    Mr. Prewitt. Yes, I don't know the 1990 to 1998 process, 
but certainly they will be made available, yes, sir.
    Mr. Miller. There is a real concern about the decision 
process of which is going to be the more accurate set of data. 
And if the National Academy of Sciences is not going to be able 
to make a decision prior to March 2001, who is going to make 
that decision?
    Now, my understanding in 1991, when this decision was made, 
that there was a panel within the Bureau of experts that was 
basically equally divided to help, we may need more 
clarification, but there was some panel of experts within the 
Bureau. But you are not going to rely on the National Academy 
of Sciences because they are going to take too long, I gather.
    Mr. Prewitt. Yes, sir, we could not wait. The National 
Academy of Sciences will do an evaluation--there is already a 
2010----
    Mr. Miller. So how is the decision going to be made? Is it 
going to be made--of course you won't be there, unless whoever 
is appointed President. We know there is going to be a new 
President. But Mr. Thompson, Mr. Hogan will certainly still be 
there. What experts? Are they strictly Bureau employees or who 
is going to come up with the recommendations? I think there was 
some outside people making recommendations, acknowledged 
experts.
    Mr. Prewitt. What will occur--let's just talk about 2000. 
What will occur in 2000 and is occurring in 2000, we do have an 
executive committee that follows the ACE process. As I say it 
meets every 2 or 3 weeks, many members of which are here behind 
me. I think there are maybe 9--no, it is larger than that, 
maybe 13 members of that who represent all Census Bureau 
employees who are math statisticians, demographers, field 
operations experts and so forth. And they look at every one of 
these processes, every one of these processes, and make a 
judgment and deliberation about what will make the most 
successful census.
    They will continue to meet right through the entire 
process. The way they are designed, that committee is chaired 
by John Thompson and it is advisory to the Director. It will 
make a recommendation to the Director, is the process.
    Mr. Miller. One of the concerns I've had going back a 
couple of years or so is you can have a bias within a 
committee. If I select a committee or Mrs. Maloney selects a 
committee, if we have sole responsibility for selecting it, it 
will be a bias by who we select. I mean you ask Mr. Davis and 
Mrs. Maloney, they are going to have one set of opinions. Mr. 
Ryan and I will have another. My understanding was more of a 
nonpartisan--if you select all people that are already biased 
in favor of adjustment, you are going to have that conclusion. 
And I'm sure Dr. Hogan, who is a respected statistician is bias 
to some extent. Because he has had his heart and soul in this 
for a decade, he's been working on this program.
    But Mr. Friedman--Dr. Friedman at the University of 
California--Berkeley, who is not going to have any input in it 
is a respected statistician too. So, I mean are the only people 
that are going to provide input just going to be people who are 
``yes'' people?
    Mr. Prewitt. No, sir, I don't know what you mean by ``yes'' 
people.
    Mr. Miller. I don't consider Dr. Hogan a yes person.
    Mr. Prewitt. You wouldn't if you met with him. These are 
professionals.
    Mr. Miller. I want to make sure there is a diversion of 
opinions in the decision process.
    Mr. Prewitt. If you sat and listened to some of the 
arguments that go into this you would appreciate there is a 
divergence of opinion. And it certainly includes people who in 
1990 thought we should not have adjusted who are employees and 
very senior, important employees at the Census Bureau. This is 
not a committee that was sort of put together that way. It is a 
committee all of whom have defined positions. These are the 
senior positions, and so they are there by virtue of the 
position they hold, not the kind of assumption they have. We 
did not test anybody's viewpoint.
    Mr. Miller. There are no outsiders participating in this?
    Mr. Prewitt. No.
    Mr. Miller. But there was in 1990 is my understanding.
    Mr. Prewitt. No, that was a different process. I can 
describe that. That is a different process.
    Mr. Miller. I would be interested to have an explanation of 
how the process or the decision will be made. In your written 
testimony you say you will use something called dual system 
estimation to estimate the degree to which each of the 448 
categories of post-strata is overcounted or undercounted. Then 
you would assign a certain weight to that category which would 
tell you how many people to add or subtract from that 
particular segment of the population; is that correct?
    Mr. Prewitt. Is that correct? I don't think that is exactly 
my wording. I don't think I talked about--I would have to look 
it up, but I think it talks about statistical records, not 
people.
    Mr. Miller. Let me proceed. If it is possible to have 
strata with adjustment factors of more than one, you have an 
adjustment factor of--it may be 1.1, 1.2, it is also possible 
to have post-strata with adjustment factors of less than 1. 
That is people fitting a certain description could be 
multiplied by a factor of 0.8 or 0.9.
    Mr. Prewitt. Correct.
    Mr. Miller. Correct? OK. Let's take an example, let's say 
you are talking about the following: A non-Hispanic White woman 
age 30 to 49 living in the suburbs who own their own homes in 
the Midwest. Let's say the Bureau estimates a 5 percent 
overcount of these women. The Bureau would give this group an 
adjustment factor of 0.95. So if the unadjusted census counted 
100 people--100 women in a block, the adjusted number would 
show only 95 in that block.
    The truth is if the actual census counts 100 people in a 
block but in the ACE all of these people fall in a category 
that the Bureau estimates were overcounted, the adjusted 
population of the block will be less than 100. So we are in 
effect deleting people from the census.
    Mr. Prewitt. No, we're not.
    Mr. Miller. I mean, if we have 100 people and their 
adjustment factor is 0.95, we are only going to have 95 people 
counted. No? I know we're not going to destroy forms. We're not 
talking about the forms being there, but the fact if----
    Mr. Prewitt. It is very important to make the American 
public understand that 72 years from now, when you and I go 
together to the National Archives, everyone who submitted a 
form will find their record there. And there will be no form 
there from anyone who did not submit a form. That is, the 
actual census file itself will include everyone who cooperated 
in this census.
    Now, we are now talking about a statistical record. And 
that is a different process. So it is not anything about people 
being subtracted or virtual people or anything else. We're 
talking about a statistical process. The answer, sir, is yes. 
Where we have evidence that a certain population group was 
double-counted, to leave records for those people in the 
statistical record, means that we have now inflated some 
number. We are now giving to the country something which we 
know to be incorrect, and we don't think we should do that.
    Mr. Miller. If two people completed the form, one in 
Florida and one in New York and it is the same person, we don't 
want that. I understand that. But the problem is my 
understanding is that if you have 100 people living in an 
apartment high-rise or something. If that is a statistical 
classification that is considered overcounted--you have 100 
people you count, we have 100 forms that are returned. All 
right? And you have 100 people listed by name. But then because 
that fit in a classification that is considered overcounted, 
you are going to subtract people from that so the actual count 
instead of 100 would be 98, or whatever adjustment number; 
right?
    Mr. Prewitt. Otherwise we would be giving the country 
incorrect data.
    Mr. Miller. Then you are deleting people from the census.
    Mr. Prewitt. No, we were not deleting people.
    Mr. Miller. Wait a minute. We're keeping the forms. I 
understand the forms are going to be there. I don't know if 
they are going to be physically kept, that is a different 
issue. People are going to get counted less than a 1.0. You are 
counted as a 0.98, a 0.95. You are going to have fewer people. 
If you have 100 people that fill out that form, you have 100 
names in that area and it comes out with a 0.98 adjustment 
factor because of the statistical analysis, then you are only 
going to have the number that is going to show up on the 
adjusted, or you like to call it corrected, the adjusted number 
is 98 people. Two fewer people.
    Mr. Prewitt. Happy to call it adjusted. Again, if I could 
just take a moment, the people that you are describing, that is 
the category of persons that you are describing, we have 
independent evidence that those kinds of persons were double-
counted at the rate of .02 percent, to use your example. And, 
therefore, to leave statistical records of that category at the 
level which you are recommending that we do means that 
basically we're deliberately leaving in the census counts 
people who have been double-counted, because they counted their 
college student and we found their college student at the 
dormitory. That happens.
    And what we know from 1990 is there were as many as 4 
million cases. So, yes, we have a statistical procedure that 
for the purposes of giving this country accurate data for 
reapportionment, for redistricting, for Federal funding, we 
have a process that does not give the country incorrect data 
when we know it is incorrect. Nothing more complicated than 
that.
    Mr. Miller. If you have 100 names in this area, in this 
block, and your statistical analyses says that is an 
overcounted population, so even though you have 100 names of 
100 separate individuals, you are going to statistically remove 
two, three, four, whatever the number of people of that overage 
is. And this is one of the problems about all of these post-
strata. It is like the issue Dr. Friedman talks about, your 
claim that you are getting these numbers from Asians in Hawaii 
and Asians in Chinatown are the same. They have the same 
response rate. Some studies show that they don't behave the 
same. And, you know, I guess you have got proof that shows that 
the Cubans in Miami respond at the same rate of response as the 
Mexicans in Los Angeles or in El Paso or somewhere.
    I mean you are saying they are exactly the same behavior. 
Based on that, you can delete people or add people, which is 
hard to say that--I have not been to Los Angeles----
    Mr. Prewitt. That is your characterization, not ours, sir.
    Mr. Miller. But aren't you using--well, you have already 
said you're using--all Hispanics were one classification. 
Whether you are a Hispanic in El Paso or Houston or New York 
City or Chicago or Wisconsin, you get counted the same and you 
get adjusted the same if you are Hispanic.
    Mr. Prewitt. I didn't quite say that. I said----
    Mr. Miller. Well, but aren't all Hispanic one category, 
period?
    Mr. Prewitt. No.
    Mr. Miller. No?
    Mr. Prewitt. All Hispanics who also are in census tracts 
with low response rates who also rent their houses, who also 
are between the ages of 18 and 29, who also are women, who also 
are unrelated to anyone else in that household. All of those 
people who have that set of characteristics constitute a 
universe of those people.
    And then we take a sample of those persons and, on the 
basis of that sample, estimate for that universe of people who 
have all of those characteristics--not just Hispanic, but all 
of those characteristics--what are the probabilities that they 
were caught in the census. And that is the process that we 
used. It is not ``all Hispanics'' because we are--it's like 
saying all renters or all people between ages of 18 and 29 or 
all anything else.
    Mr. Miller. But the post-strata for Hispanics is all 
Hispanics, whether again they are in El Paso or Chicago or 
Miami, they are all the same. Whether it is Guatemalan, 
Honduran----
    Mr. Prewitt. I just have to say this again. They are not 
all the same.
    Mr. Miller. Statistically, you're putting them in one 
classification.
    Let me ask another question. When you take someone--
subtract someone from the record, you subtract them, but it's 
not because of a duplicate. It's just that some statistical 
model says subtract one person. When you have 100 people on a 
block and the statistical model says subtract somebody, it's 
not because you have a duplicate. It's because you have 100 
specific names there, but it's because of the statistical 
models, not because of a duplicate.
    Mr. Prewitt. That's a separate process. Subtracting 
duplicates is a separate process.
    Mr. Miller. Go ahead and finish what you were going to say.
    Mr. Prewitt. We don't treat all Hispanics like all other 
Hispanics. We treat Hispanics who rent, who are of a certain 
age, who are of a certain gender, of a certain relationship to 
the household. That is the post-stratum. Not all Hispanics. 
They all have to live in a metropolitan area. So it's simply 
incorrect to say that all Hispanics belong to the same post-
stratum.
    Mr. Miller. But the Hispanics that meet those 
classifications can be living in Los Angeles, El Paso, Houston, 
Miami, or New York or Chicago as long as they meet those 
general classifications. Then they are all adjusted. Asians in 
Honolulu are being pooled with the ones in New York, and you're 
saying they respond the same.
    Let me go on to Mrs. Maloney.
    Mrs. Maloney. Dr. Prewitt, would you please answer Chairman 
Miller's line of questioning without interruption? I would like 
to give you an opportunity to explain the process without 
interruption.
    Mr. Prewitt. I think the particular process we're talking 
about is the structuring of the post-stratum which, as he said, 
there are 448. These constitute identifications of population 
groups, and one of the identifying characteristics is their 
ethnicity or their race. It's only one of their identifying 
characteristics. Another is whether it's a metropolitan area or 
not, the size of the metropolitan area. Another is, as I say, 
age, renter status and so forth and so on. That constitutes a 
post-stratum, and it is our judgment that everyone who inhabits 
that post-stratum has a more similar probability of being 
captured in the census than someone in a different post-
stratum.
    Everyone in the country is put into post-stratum. You are. 
You're put in as a White female between 18 and 29----
    Mrs. Maloney. Why is everyone laughing?
    Mr. Prewitt [continuing]. Etc.
    And we have--based on our experience, we have an assessment 
of the probability of having caught you in the census, and 
that's true for all of these groups. Nothing more complicated 
than that. That's why they're put together.
    We don't yet know until we actually conduct the census how 
many of them we actually did catch in the census, but we think 
they constitute a reasonable, plausible, universe of people who 
have roughly similar probabilities of being captured.
    I have not had the chance to read Mr. Friedman's and Mr. 
Walker's letter. If they are saying that all Asians from every 
place are put in one post-stratum, they are misreading our 
post-stratum design. They are very sophisticated statisticians, 
and I doubt they are misreading it. I doubt that, the way you 
have characterized their letters, the way they have written it. 
But I haven't read it, but, my guess, they understand our post-
strata structure, and it's not putting all Asians in one post-
stratum. It's not.
    Mr. Miller. It's all Asians that meet the large 
metropolitan areas and age brackets and such, too. But it's 
correct that a Japanese American in Honolulu that meets that, 
you know, other demographic characteristics and a China person, 
a person from China from New York who meets that 
classification, a large metropolitan area, age brackets----
    Mr. Prewitt. Mr. Miller, it's just as--there are lots of 
ways to rent a home. You can rent a condo, you can rent a co-
op, you can rent a mobile home. You can rent different kinds of 
homes, so all renters are also put into a post-stratum because 
that's one of our stratification variables. It's not just that 
all renters constitute a post-stratum. It's that all renters 
that also have these other characteristics create one.
    So there's nothing magic about this process to say there 
are a lot of different ways in which people rent, but 
nevertheless we have decided that renters on balance behave 
differently from owners, and we have a lot of evidence to that 
effect.
    Mrs. Maloney. Dr. Prewitt, approximately how many post-
strata of the 448 include the Hispanic characteristics, 
approximately?
    Mr. Prewitt. Fifty-six.
    Mrs. Maloney. I think this whole issue of the undercount 
and the deep resistance that my colleague Danny Davis 
illustrated with the poem--the time that it was clarified to me 
in the most stark way were the statements of a Republican-
appointed member of the Supreme Court, Justice Stevens, when he 
asked the question of a Republican lawyer--and this was 
before--the case that we've referred to before the Supreme 
Court. And he asked her, how would you count a home, an 
address, where six people lived, yet every time you went and 
knocked on that door, whether it was in the morning or at night 
or whatever time, no one answered the door? And she said, zero; 
we would count it zero. Then he asked, what if you knew and all 
the neighbors told you that six people lived there? She said, 
we would count it zero.
    Then Justice Breyer asked, what if the lights go on, off 
and on, every night and you see the lights going off and on 
every night and you know people live in that home? How would 
you count that home? And she said, zero.
    And that really clarified in the starkest and really 
simplest of terms why we need to adjust for the undercount when 
we know that people live there, when we know that people are 
there. We are being dishonest and unfair and unjust not to 
count the six people that we know live there. And on the count 
and the issue----
    Mr. Miller. Let Dr. Prewitt answer that.
    Mrs. Maloney. May I continue? I do not believe I've 
interrupted you. May I continue?
    Mr. Miller. Yes.
    Mrs. Maloney. And on the issue of the double count, many of 
my friends, because I am a mother, happen to be the parents of 
daughters; and I can't tell you--and my daughter is in college. 
I did not count her. She is going to be counted at her 
university. But I can't tell you how many of my friends who 
have similar children my daughter's age at school either told 
me that they counted their child or literally called and asked 
me whether or not, because they know I'm working on the census, 
whether or not they should count their child. So I'm giving 
these as just practical examples of why we need this.
    Now, I have a question that--Dr. Prewitt, you mentioned 
that you would use the 1.6 percent if you had to, but you also 
said that the tool that you had for the 2000 census was a 
better tool than 1990. And could you explain to us why it is 
better?
    Mr. Prewitt. Well, obviously, we've drawn on our experience 
from 1990. We also have a sample of approximately twice the 
size of what we had in 1990. That was 150,000. Turned out to 
be, finally, 175,000 households. In 2000, 314,000 households. 
We do think the construction of our post-strata is drawn upon 
research of over 10 years about all of our matching procedures, 
how we're handling movers, our software development work. 
There's no end of ways in which we try to improve it. That's 
true of every census.
    1990 was better than 1980, but 2000 is much, much superior 
operationally, just like the census itself is superior 
operationally to the 1990 census thanks to the U.S. Congress, 
that they allowed us to front load our recruitment staff. 
That's why we can say we're near 85 percent complete today. A 
lot of the improvements that we put into the census we've also 
put in to our ACE design.
    I just--for a moment if I could refer us all to this--I 
brought this chart before--because I think it's important. Each 
of those peach boxes represent the moments in the census when 
we can miss people, but it also represents the moments in the 
census when we can erroneously enumerate, that is, double count 
such as the college students. So all the ACEs is nothing more 
complicated than this, all it is, is to go to try to find those 
persons who returned the form but didn't completely mail it 
back. They left some people off.
    It's the people who--for whom we never got an address. We 
think there won't be many of those, but there are some. It's 
the people we got in nonresponse followup, but we didn't get 
the complete household. And it's the people we got in yet 
another process called coverage improvement followup.
    All of those are processes to try to get everyone. Every 
one of those processes can leave someone out, and all the ACE 
is, is a way to go back and find out the percentage of people 
in those various boxes when we missed them, how we missed them 
and what their demographic characteristics are. It's not a very 
complicated thing. It's a very straightforward thing. If it 
works operationally, we think that we should give to the 
country the better data, the adjusted data, the more accurate 
data, the more corrected data.
    That's all I can really say about it. It's an attempt to 
find the people we missed or to find the people we erroneously 
included, that is, the double count and make certain they are 
not represented in the final statistical records.
    Mrs. Maloney. Thank you very much.
    Mr. Miller. I just want to ask you to clarify one thing. 
Mrs. Maloney I think knows the answer to this. But when the 
lawyer spoke about not counting someone if the lights come on 
and off, that's not the way the Bureau would handle that; is 
that correct?
    Mr. Prewitt. In that particular instance we would try to 
get a proxy interview.
    Mr. Miller. Correct. You would get proxy data. And, 
hopefully, you could find someone that would know who lives in 
there, and it would not necessarily be zero. You'd try to do 
everything you can to get some type of data from someone else 
nearby.
    Mr. Ryan. Like a neighbor or something like that.
    Mr. Miller. Right. So I think the attorney was not as clear 
on the procedures as your process would show; is that correct?
    Mr. Prewitt. That is correct. There are many things about 
that Supreme Court ruling that were not accurate.
    Mr. Miller. Mr. Ryan.
    Mr. Ryan. I have a couple of procedural questions.
    It's not always the inner city. We have to focus on the 
rural areas, too. So I'd just like to put in a word for 
Orfordville, WI, if I might.
    Orfordville is a town of about 700 people. Hopefully, it 
will be a town of 700 people after the census is done, but the 
interesting thing about Orfordville is they all have post 
office boxes. That is just the way it works there. They all use 
P.O. Boxes. So when they didn't get the forms they were very 
much alarmed.
    I think we followed up with your Chicago office, and I 
think we're doing a very good job of getting some enumerators 
over there to handle that situation. But what about the other 
Orfordvilles throughout America, small farming towns at the 
intersections of rural county trunk highways?
    My question is, if we didn't intervene on the Orfordville 
situation and there are other towns like that who have P.O. 
Boxes who, because we don't have post census local review, 
didn't catch that and these are not included in the master 
address file, how do we catch these mistakes? Can the 
adjustment help a neighborhood where no people are counted 
essentially?
    Mr. Prewitt. Yes, sir. But before I get to that question, 
we do have procedures to find those areas where there was 
this--where we thought it was city style, but it turned out to 
be----
    Mr. Ryan. We're working on that right now. But what if it 
doesn't work?
    Mr. Prewitt. Absolutely, we would find this in the ACE. 
Here's how we would find it. Since the ACE is a random sample 
of all blocks in the United States--as I say, about 12,000 
blocks are in the ACE design--one of those blocks or some set 
of those 12,000 blocks would be exactly those areas by 
definition and proportionate to how many such areas they are.
    When we go to that area in the ACE interviewing process, 
we'll knock on the door. They'll say, I never got counted; I 
got left out. We will then determine how would that have 
happened, and we will then detect exactly that problem. Indeed, 
it will show up because our address file won't work.
    We will have independently listed--as I say, we have 
independently listed every address in our ACE sample block; and 
we are now saying, my goodness, something has gone wrong. 
Because we have a listing of this household, but it's not in 
our master address file. How could that have happened?
    Then we'll determine how that happened, and when we do the 
adjustment we will be able to adjust for exactly those 
population groups who fit into this top upper right peach box. 
This is missed housing units. Our ACE design is as focused on 
making sure that we account for missed housing units as missed 
people in known housing units.
    Mr. Ryan. I'm going to go back to this Orfordville example, 
because I think it's an interesting one. Not only do they all 
use mostly P.O. Boxes--but let's take Footville, which is the 
town just up the road. Footville, for some reason, your master 
address file, even though the LUCA tried to change this, the 
change was not incorporated. You included everybody who lived 
in Footville, WI, a town of about 600 as if they were 
Janesville, WI, residents. So the names were correct. The 
addresses, however--the street addresses were right, but the 
cities were--were the larger city in that county. And they all 
had P.O. Boxes.
    So when the enumerators came around to collect the data, 
they knocked on the door. The people would say, I never got a 
form; I was never counted; I was worried you wouldn't come by; 
glad you're here. And the enumerator then had a Janesville 
address.
    Now it's up to the person who answered the door to change 
that address, I assume, from Janesville to Footville, but what 
if that didn't take place? What if an enumerator didn't make it 
to the house that was a P.O. Box and the address for the entire 
small town was lumped into another city and those people 
weren't counted? That means in a town of, say, 600 people you 
missed 200 people. That's a third of the city of the town. How 
does the adjustment fix that?
    Mr. Prewitt. I want to make certain that we give you a full 
answer to this. So what I'm saying may not be completely 
responsive.
    It's my understanding that what would happen--the important 
thing is the addresses are all geocoded, which means whatever 
the kind of the denominator is, what the town is called----
    Mr. Ryan. Footville.
    Mr. Prewitt. Footville is called----
    Mr. Ryan. Janesville.
    Mr. Prewitt. Janesville, that the important thing is to 
make sure that when we count the person in that household they 
occur on the block. From the census point of view, the name of 
the community is not what's important. The unit of analysis for 
us is the block, and they will be geocoded to that block. So 
they will appear in the right place.
    Now, the process by which we make sure that all of our 
blocks get attached to the right place, but now we've got to 
make sure to connect to the right denominator. That wouldn't be 
a problem of the adjustment. That would be a problem of our 
geographic division working with the local community. It would 
be easy to fix because we know where they are.
    Mr. Ryan. I see my time running out. You mentioned in my 
earlier questioning that you're going to be giving the States 
the redistricting numbers kind of on a State-by-State basis 
starting maybe March 5 and then moving out, but your post-
strata adjustment is based on a national scale, correct?
    Mr. Prewitt. Yes, sir.
    Mr. Ryan. How do you take that into consideration as you're 
releasing State redistricting data on a State-by-State basis--
when your post-strata is national, how does that jibe or 
correspond with--say you put Vermont's out in March and then 
you put Wisconsin's out in April, then California's out in 
later April, how does that correspond and how does that take 
into account the fact that the post-strata is national but 
you're sending out individual States earlier?
    Mr. Prewitt. All of the work that will have been used to 
create the correction numbers on a national basis will have 
already been done across all 50 States, the District of 
Columbia, and Puerto Rico, and the actual mechanical process of 
actually now creating the right products takes a while, and it 
takes a couple of days or whatever.
    I better be careful, though, have to correct me, but it 
takes a period of time, and we will simply turn first to those 
States which have earlier redistricting deadlines as best we 
can. I should say the entire--I'm not making a promise about 
March 5. I'm only saying that, in principle, it will be a flow 
basis to try to respond to your question about January 20.
    But, basically, we could wait until the last day of the 
month, March 31, to mail them all out the same day. But I 
think, as a courtesy of the States, we would want to get them 
out where we can get them out sooner where possible, but all of 
the work that has to be done in terms of making the correction 
numbers from the post stata will have already been done. 
Otherwise, the implication of your question is correct. We 
couldn't do one State and so forth.
    Mr. Ryan. One more question. The apportionment data--and 
correct me if I'm wrong, the apportionment data will be done 
before the ACE adjustment is completed?
    Mr. Prewitt. Correct.
    Mr. Ryan. How will you be taking into consideration 
Orfordville and Footville, WI? If the apportionment data is 
done before the adjustment and if those towns aren't fixed and 
counted for, will they not be lost in apportionment but--may be 
caught up in redistricting but won't they be lost in 
apportionment if they are not fixed with the adjustment 
beforehand?
    Mr. Prewitt. Not if they are in Wisconsin. The 
apportionment number is nothing but a State total.
    Mr. Ryan. You're saying because it is this block, but what 
if an enumerator didn't hit a door and no one got answered?
    Mr. Prewitt. No. If they are not captured in the census and 
we have not done the ACE, then the Wisconsin number will be 
deficient by that amount.
    Mr. Ryan. Because we have a lot of reports about rural 
areas who are subsisting mainly of P.O. Boxes and the 
enumerators just don't catch them--you know, we're planting 
right now in Wisconsin. People are in the field. They are not 
in their homes right now.
    Wouldn't a post census local review make sense? Wouldn't a 
1-month post census local review--let the county clerks, let 
the local county board supervisors take a look at the data and 
say, gosh, you missed half the town of Orfordville because, 
during the time you were coming around with enumerators, they 
were out in the field planting. Wouldn't post census local 
review make sense for these cases?
    And these cases I appeal to you are not unique. They are 
all over the place. Our Governor, Tommy Thompson, is saying 
he's getting it from the entire State of Wisconsin. Why 
wouldn't we want to do post census local review for those kinds 
of instances?
    Mr. Prewitt. Obviously, a post census local review would 
have to be done for 39,000 jurisdictions, not just yours, which 
means you're asking us to redo the census starting sometime in 
October or November. That's impractical. If you wanted an 
apportionment number by December 31, we can't start redoing the 
census based upon 39,000 different mayors or county 
commissioners saying we would like you to come back and count 
again because we don't think everybody got included.
    Mr. Ryan. What about a voluntary post census local review, 
like localwise?
    Mr. Prewitt. This gets into a very complicated thing having 
to do with the nature of distributive accuracy and numeric 
accuracy. It's really what the court case went to and so forth. 
And I can get into this if we have time, but any kind of 
voluntary process like that that was used in some places and 
not other places would have all kinds--at this late stage in 
the census would have all kinds of implications for the final 
quality of the data.
    I can't imagine if we made this voluntary that the only 
State that would be interested would be Wisconsin. I think 
every State in the country would say come back and count us 
again. We may find a few more people. That is what the ACE 
does.
    Congressman Ryan, I'm not trying--you are making a case for 
the ACE. You are making a case for why we have to do this 
quality process to go out and determine if we miss people, 
where they live, and then correct for that.
    Mr. Ryan. Actually, I'm making a case for post census local 
review for apportionment and everything else because LUCA was 
designed to fix this. It didn't fix it, though, in some of 
these towns. Some of these towns did participate in LUCA, did 
send their data, and they still--we still have the problems.
    So that's why I'm saying, why not exhaust every effort 
possible? I still contend that there may be a chance, there may 
be a small timeline, a small window to do a voluntary post 
census local review so these rural towns who are having these 
problems can make sure they are counted. There is a lot of 
anxiety out there over this. I just appeal to you to take a 
look at that.
    Mr. Miller. We have a vote coming up, but we have time for 
Mr. Davis.
    Actually, I'm glad, Mr. Ryan, you're on this panel. Because 
rural areas, as we all know, have problems of their own. And we 
keep focused on large metropolitan areas and the migrant 
population, immigrant population, but there are unique problems 
in rural America, so I'm glad you can bring them up.
    I agree with you, by the way. It's too bad we don't have 
full census local review which the House of Representatives 
passed but was opposed by the Census Bureau and by the 
Democrats.
    Mr. Davis.
    Mr. Davis of Illinois. Dr. Prewitt, are there any post-
strata groups that we've conclusively determined to absolutely 
be the most difficult ones to enumerate or count?
    Mr. Prewitt. Well, based on our 1990 experience, we would 
expect a group that was made up of young African American males 
in inner cities who rent and who live in irregular housing, 
thats unrelated to each other and so forth in that housing, 
that's likely to be a particularly hard-to-count population 
group.
    Also, based on 1990, though we think we've done a lot of 
work on this, Indians living on reservations with other sets of 
characteristics were more difficult to count.
    Age is actually a big factor in how well we count people. 
That's also true in the rural areas.
    By the way, the post-strata structure, of course, includes 
a special post-strata just for rural areas and especially for 
rural areas where they rent, which we know to be a hard-to-
count population group, highly mobile and so forth. So we are--
in that sense, the design takes care of--it sweeps across all 
of the problem situations in the country, not just fixed on the 
one.
    But, yes, sir, we will have a particularly difficult time 
with that particular population group.
    Mr. Davis of Illinois. I thank you very much. I think it's 
been a very productive hearing, and I certainly want to thank 
you for your responses.
    And, Mr. Chairman, I want to thank you; and I'm going to 
yield to the ranking member here.
    Mrs. Maloney. I tell you I'm getting tired of all of this, 
of this constant effort really to disrupt the efforts of the 
professionals at the Census Bureau from doing their job and 
from correcting the undercount.
    I would like to put in the record an article from the 
``Washington Post'' written by David Broder entitled, Playing 
Hardball on the Census; and I think he clearly puts into focus 
what's going on.
    He says, in preparing for the showdown on the census, 
Republicans reshuffled the leadership of the House Census 
Subcommittee and hired its new staff director, Thomas 
Hofeller--this was back in 1998--a Ph.D. Professor and battle-
tested GOP strategist in redistricting. And he talks about 
meeting with Hofeller and how Hofeller goes to a blackboard 
analysis of the Census Bureau's plans stressing the risks they 
see of serious miscalculation with untested techniques and a 
tight timetable.
    But as I was leaving, Broder says, Hofeller offered a 
decidedly non-academic comment; and he said, ``someone, he 
said, should remind Bill Daley, the Secretary of Commerce and 
overseer of the Census Bureau, that if he counts people the way 
he wants to, his brother, Chicago Mayor Richard Daley, could 
find himself trying to run a majority-minority city.'' This is 
Hofeller talking. And Broder then explains this blunt reference 
to racial ethnic realities is not uncommon on either side of 
the fight.
    Among the thick file of scholarly papers Hofeller gave me 
was a memo entitled, Why Conservatives Should Be Opposed to 
Census Sampling; and it went on and said and warned in these 
papers--again a direct quote from the Republican papers--a 
census that uses sampling and statistical adjustment will be 
the biggest victory for big government, liberalism since the 
enactment of the Great Society. These statistical techniques 
will be used to add millions of virtual people to big-city 
population centers, thus increasing the political power and 
levels of Federal Government funding in those jurisdictions.
    Then came two pages of answers of how this outrage can be 
stopped. And it outlines the courts, in Congress, the 
grassroots, and they are trying to do this.
    We have been to the Supreme Court. I understand there has 
been another suit filed in Virginia against scientific 
sampling, and I remind my colleagues that two budgets have been 
held up. Anti-sampling language was attached to a disaster 
relief bill, and yet we have pages and pages of testimony that 
there is an undercount. We either correct it when the 
professionals have told us how to correct it or we deliberately 
don't count people. That's what this hearing is about, whether 
we correct for the undercount or whether we do not and 
therefore deliberately not count people.
    Mr. Miller. Thirty seconds.
    Mr. Ryan. Mrs. Maloney, I just wanted to put for the 
record, where I come from it's not a Republican-Democrat issue. 
Democrat--liberal Democrat politicians from my home State--
Senator Herb Kohl, Mayor Norquist of Milwaukee--are also 
opposed to sampling. We think it's bad for our State. We think 
the scientific community is out on this one. So I just wanted 
to say it's not a conservative-liberal thing, Republican-
Democrat thing everywhere. In some places, it is. It's just 
wrong to paint that very broad brush.
    With that, I yield.
    Mrs. Maloney. May I respond? Because my name was mentioned.
    Mr. Miller. Let me make my statement, please. We are 
running low on time. We can come back if you want.
    I want to put in the record an editorial by Peter Skerry in 
last Sunday's Washington Post. It was titled, We're Overstating 
the Importance of the Undercount. I think it's a good 
explanation of the fact we really are overstating the 
undercount.
    What this hearing was about was whether we were going to 
use statistical methods and adjustments to a census. There is 
real, legitimate concern that the method will not work at the 
block level and to use it for the redistricting purposes--I 
think it was a good hearing. There are still a lot of questions 
to be answered. We'll be discussing this, I'm sure, for the 
next months ahead, but there is a real debate within the 
statistical community that the method will not succeed, and 
that's the reason we've got to be careful. As Justice Scalia 
said, there is a potential political manipulation.
    On behalf of the subcommittee, I would like to thank you 
for appearing here today.
    Mrs. Maloney. May I respond?
    Mr. Miller. We have a vote. We'll come--if you want to come 
back----
    Mrs. Maloney. I would like to respond to what was stated by 
Mr. Ryan.
    Mr. Miller. We will then recess and come back after we have 
a vote.
    Mrs. Maloney. I would like to respond now for 2 seconds.
    Mr. Miller. If you can do this in 15 seconds, go right 
ahead. Otherwise, I'm going to adjourn it here.
    Mrs. Maloney. My dear friend and colleague from Wisconsin 
mentioned that it was not a division between the Democratic and 
Republican party, and he mentioned names in Wisconsin that 
supported his point of view. But there is a clear distinction 
between the two parties on a national level, from the President 
who supports the use of modern scientific methods to the entire 
leadership on the Democratic side.
    And I would like to put into the record statements that 
have been reported by the press quoting the Republican 
leadership that they will not let it go forward. Newt Gingrich 
called it a dagger in the heart of the Republican leadership, 
and Linder said even if the court approved it he will stop it. 
When you say it is not a division between the two parties, it 
is----
    Mr. Miller. Mrs. Maloney.
    Mrs. Maloney [continuing]. It is clear. It is in the record 
not from my lips but from the independent press. I would like 
to put those statements in the record.
    Mr. Miller. Mrs. Maloney, present the records right now. 
Come on. We're trying to get a vote together. You talk about 
all this away from the partisanship, and all you want to do is 
go back to Newt Gingrich who left Congress over 2 years ago, 3 
years ago. This is 2000. We're in the middle of the census.
    On behalf of the Census Subcommittee, I want to thank you 
for being here today.
    I ask unanimous consent that all Members' and witnesses' 
opening statements be included in the record. Without 
objection, so ordered.
    In case there are additional questions that Members have 
for our witnesses, I ask unanimous consent that the record 
remain open for 2 weeks for Members to submit questions for the 
record and that the witnesses submit written answers as soon as 
practicable. Without objection, so ordered.
    Meeting adjourned.
    Mrs. Maloney. I put the quote in the record from John 
Linder, the head of the RNC, now.
    [Whereupon, at 12:04 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T1389.055

[GRAPHIC] [TIFF OMITTED] T1389.056

[GRAPHIC] [TIFF OMITTED] T1389.057

[GRAPHIC] [TIFF OMITTED] T1389.058

[GRAPHIC] [TIFF OMITTED] T1389.059

[GRAPHIC] [TIFF OMITTED] T1389.060

[GRAPHIC] [TIFF OMITTED] T1389.061


</pre></body></html>
